No. 19-174
In the

Supreme Court of the United States
__________________
JERI LYNN RICH, as representative for Gavrila Covaci
Dupuis-Mays, an incapacitated person,
Petitioner,
v.
MICHAEL PALKO, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
__________________
PETITION FOR REHEARING
__________________
John E. Wall, Jr.
Counsel of Record
LAW OFFICES OF JOHN E. WALL, JR.
5728 Prospect Avenue
Suite 2001
Dallas, Texas 75206
(214) 887-0100
jwall@jwall-law.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
PETITION FOR REHEARING . . . . . . . . . . . . . . . . . 1
REASON FOR GRANTING THE PETITION . . . . . 1
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
CERTIFICATE OF GOOD FAITH . . . . . . . . . . . . . 13
APPENDIX
Appendix A Opinion, Concurring Opinions, and
Dissenting Opinions in the United
States Court of Appeals for the Fifth
Circuit
Randy Cole; Karen Cole; Ryan Cole v.
Carl Carson (No. 14-10228)
Randy Cole; Karen Cole; Ryan Cole v.
Michael Hunter; Martin Cassidy
(No. 15-10045)
(August 20, 2019) . . . . . . . . . . . . . App. 1

ii
TABLE OF AUTHORITIES
CASES
Allen v. Cisneros,
815 F.3d 239 (5th Cir. 2016). . . . . . . . . . . . . . . . . 7
Cole v. Carson,
935 F.3d 444 (5th Cir. 2019). . . . . . . . . . . . passim
Foucha v. Louisiana,
504 U.S. 71, 112 S. Ct. 1780 (1992) . . . . . . . . . . 11
Hernandez v. Mesa,
137 S. Ct. 2003, 198 L. Ed. 2d 625 (2017) . . . . . . 8
Jackson v. Indiana,
406 U.S. 715 (1972). . . . . . . . . . . . . . . . . . . . . . . . 6
Kinney v. Weaver,
367 F.3d 337 (5th Cir. 2004). . . . . . . . . . . . . . . . . 7
McNeil v. Director, Patuxent Institution,
407 U.S. 245, 92 S. Ct. 2083, 32 L. Ed. 2d 719
(1972). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Melton v. Phillips,
875 F.3d 256 (5th Cir. 2017). . . . . . . . . . . . . . . . . 7
O’Connor v. Donaldson,
422 U.S. 563, 95 S. Ct. 2486 (1975) . . . . . . . . . . . 6
Rich v. Palko,
920 F.3d 288 (5th Cir. 2019). . . . . . . . . . . . . 1, 4, 7
Youngberg v. Romeo,
457 U.S. 307, 73 L. Ed. 2d 28, 102 S. Ct. 2452
(1982). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iii
STATUTES
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Tex. Health & Safety Code §573.001(a) . . . . . . . . . . . 5
RULES
Sup. Ct. R. 44.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 44.2. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
PETITION FOR REHEARING
Following Supreme Court Rule 44.1, Jeri Lynn Rich
respectfully petitions for a rehearing of the denial of a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit. Pursuant
to Rule 44.2, Jeri Lynn Rich submits, intervening
circumstances of a substantial and controlling effect
warrant this petition.
After the Rich petition for certiorari was filed on
August 5, 2019, the Fifth Circuit issued an en banc
opinion on August 20, 2019 which clearly demonstrates
the tension that persists in the circuit thereby creating
confusion for the trial courts, those aggrieved and the
officers involved in alleged violations of 42 U.S.C.
§ 1983 when facing claims of qualified immunity. Cole
v. Carson, 935 F.3d 444 (5th Cir. 2019). The opinion is
attached. A petition for certiorari will surely be filed in
the case.
REASON FOR GRANTING THE PETITION
As one dissent stated: Qualified immunity strikes
an uneasy, cost-benefit balance between two competing
deterrence concerns: “the need to hold public officials
accountable when they exercise power irresponsibly
and the need to shield officials from harassment,
distraction, and liability when they perform their
duties reasonably.” By insulating incaution, the
doctrine formalizes a rights-remedies gap through
which untold constitutional violations slip unchecked.
The real-world functioning of modern immunity
practice—essentially “heads government wins, tails

2
plaintiff loses”—leaves many victims violated but not
vindicated.
More to the point, the “clearly established law”
prong, which is outcome-determinative in most cases,
makes qualified immunity sometimes seem like
unqualified impunity: “letting public officials duck
consequences for bad behavior—no matter how
palpably unreasonable—as long as they were the first
to behave badly.” Cole v. Carson, 935 F.3d 444, 470-71
(5th Cir. 2019)
Qualified immunity protects “all but the plainly
incompetent or those who knowingly violate the law.”
While this bar is not insurmountable, it is sky-high.
And it is raised higher when courts leapfrog prong one
(deciding whether the challenged behavior violates the
Constitution) to reach simpler prong two: no factually
analogous precedent. Merely proving unconstitutional
misconduct isn’t enough. Cole v. Carson, 935 F.3d 444,
471 (5th Cir. 2019)
In this case, just as Cole, the magistrate and the
trial judge specified the violations, the disputed issues
of material fact and the authority supporting the
“clearly established” element which established that
either the officers intentionally violated constitutional
rights, were clearly incompetent or existing authority,
although not identical, placed all officers on notice of
prohibited behavior.
The Cole opinion is anything but furtive. The
opinion sports 5 dissents, each separately written, one
written concurrence with the majority, and the
majority is comprised of 9 circuit judges. The majority

3
adhered to the collateral order doctrine and denied
jurisdiction, accepting and reciting the disputed issues
of material fact that were detailed by the trial court.
The opinion rested the “clearly established” element of
excessive force on prior circuit opinion.
The case also involved the questions of when, where
and at what point the background facts are relevant
and material to the questions of a constitutional
violation. The fractious decision essentially implores
this Court to grant review. Some of the dissenting
opinions focus on antecedent conduct by Cole and facts
which may or may not have been known by the
involved police officers. In Cole, the officers filed
affidavits detailing what they allegedly knew and why
they reacted the way they did.1
To what extent the antecedent conduct should be
considered by the appellate court was heavily in
dispute. Therefore a question that arose from the Cole
opinion and is present in the opinion in this case is: at
what point does the antecedent and/or continuum of
conduct become material if it is not coupled with the
officer’s knowledge?
That question sharply divided the court. The
majority opinion and trial court focused on what the
officers knew at the time of the alleged constitutional
violation. The focus on the knowledge of the officer was

1

In this case the arresting officers didn’t submit sworn evidence of
“what they knew” or why they arrested Dupuis-Mays.

4
analyzed but there was tremendous disagreement
about the material facts.2
The issue of probable cause was self-evident in Cole,
although the officers, just as this case, fabricated a
warrant, invented a story regarding the events of the
night and falsely reported the sequence of events.3
The division in the Circuit, as demonstrated in the
Cole opinion, makes it clear there is considerable
disagreement within the circuit as to how and when to
exercise collateral order jurisdiction. The division in
the circuit also pairs with the Rich petition for a writ of
certiorari in this respect:
If the trial court makes specific findings and
conclusions of law, which denied qualified immunity
and states specifically the constitutional violations
which have occurred and specifies the disputed issues
of material fact justifying the denial of QI, then
shouldn’t the Court of Appeals dismiss for lack of

2

In this case the opinion states probable cause was in part based
on some unidentified psychiatrist. The trial court rejected the
assertion as the paperwork and warrant prepared by the arresting
officers never once suggested a psychiatrist was part of the
probable cause matrix. The alleged psychiatrist didn’t have a
name, address or phone. Nevertheless in this case the Circuit
held: Further, a treating psychiatrist—as well as staff at the Green
Oaks hospital—had recommended that Dupuis-Mays be taken to
the hospital for psychiatric evaluation. Rich at 295.
3

The Cole court also addressed Fourth Amendment violations
involved in the fabrication of evidence. Here the officers also
fabricated evidence to support probable cause.

5
jurisdiction unless the Court finds there was no clearly
established right that was violated?
In other words, when the trial court specifies
conduct which supports a constitutional violation and
specifies that it was clearly established, what is the
basis for exercising jurisdiction? As the majority in Cole
noted, what the officers knew is the issue, not
something contrived and argued as fact by the officers
after the fact.4
In cases involving 4th amendment mental health
seizures, context is clear: probable cause must exist for
a warrantless arrest. It is clearly established that in
order to arrest someone because of their mental state,
there must be probable cause to believe that they are a
danger to themselves or others, unless immediately
detained.5 In this case the prolonged discussion with
Dupuis-Mays, the taking of a shower, later discussion

4

Rather than engage on the facts as we must take them at the
summary judgment stage, the officers repeatedly argue from a
different set of facts. Cole at 455.
5

“A peace officer, without a warrant, may take a person into
custody if the officer:
(1) has reason to believe and does believe that:
(A) the person is mentally ill; and
(B) because of that mental illness there is a
substantial risk of serious harm to the person or to
others unless the person is immediately restrained;
and
(2) Believes that there is not sufficient time to obtain
a warrant before taking the person into custody.”
Tex. Health & Safety Code §573.001(a). (emphasis added)

6
while smoking and the long drive to Dallas from
McKinney, Texas obliterated any immediate need to
confine.6
In Cole, in the plaintiff’s version of events, there was
no basis to believe or at least there were disputed facts
as to whether Cole posed a threat to the officers. In Cole,
the officers submitted sworn accounts of their version of
the events. There was likewise audio of the events. That
was sufficient for the majority in Cole to deny the
exercise of “collateral order” jurisdiction, basing its
conclusion on the findings by the district court.
In this case, the Defense submitted two compact
discs with audio, video from the officers and video from
the Green Oaks hospital, which was not the closest
mental health facility.7 Palko and Hudgens never

6

A State cannot constitutionally confine without more a
nondangerous individual who is capable of surviving safely in
freedom by himself or with the help of willing and responsible
family members or friends. O’Connor v. Donaldson, 422 U.S. 563,
576, 95 S. Ct. 2486, 2494 (1975)
Nor is it enough that Donaldson’s original confinement was
founded upon a constitutionally adequate basis, if in fact it was,
because even if his involuntary confinement was initially
permissible, it could not constitutionally continue after that basis
no longer existed. Jackson v. Indiana, 406 U.S. 715, 738 (1972);
McNeil v. Director, Patuxent Institution, 407 U.S. 245, 248-250, 92
S. Ct. 2083, 32 L. Ed. 2d 719 (1972). O’Connor v. Donaldson, 422
U.S. 563, 574-75, 95 S. Ct. 2486, 2493 (1975)
7

There was a psychiatric hospital within 5 minutes distance of the
arrest. Palko and Hudgens took Dupuis-Mays on a 40 minute
drive to Dallas, Texas rather than go to the hospital in their own
city. They never explained that.

7
stated any facts under oath justifying the arrest, the
trip to Dallas or the beating of a disabled person.
The majority in Cole concluded that it would be for
a jury and not judges to resolve the competing factual
narratives as detailed by the district court and the
record as to Cole’s excessive force claim. The majority
stated they were limited by jurisdiction to the
materiality of factual disputes.
To the contrary in this case, the opinion stated: In
sum, QI “represents the norm, and courts should deny
a defendant immunity only in rare circumstances.
Rich v. Palko, 920 F.3d 288, 294 (5th Cir. 2019)
The Cole concurrence stated:
I concur fully in the majority opinion. Despite the
outcry of the dissenting opinions, there is no new law
being made or old law being ignored. The majority
opinion takes no position on the public policy issues of
the day regarding policing and the mentally ill. Rather,
it follows the longstanding en banc rule that “we lack
jurisdiction to review the genuineness of a fact issue” on
an interlocutory appeal of a denial of summary
judgment based on qualified immunity. Melton v.
Phillips, 875 F.3d 256, 261 (5th Cir. 2017) (en banc)
(quoting Allen v. Cisneros, 815 F.3d 239, 244 (5th Cir.
2016)); Kinney v. Weaver, 367 F.3d 337, 341, 346-47
(5th Cir. 2004) (en banc). As the able district court
determined, the facts are very much in dispute.
The majority in Cole noted that the dissents took
issue with the disputed facts. Judge Duncan focused on
what he termed “undisputed pre-encounter events.”
The majority discounted that assertion stating in light

8
of the officers’ evolving stories, it is disputed whether
any of the events recounted were known to the officers.
The dissent cited to the reports and affidavits of other
persons.8
Unlike Cole, Palko and Hudgens never stated what
they knew! The only evidence submitted by Palko and
Hudgens were two affidavits from others who weren’t
identified by the arresting officers as ever factoring into
the decision to arrest Dupuis-Mays.
The published opinion in this case fails to mention
all the red flags outlined by the trial court and the
United States magistrate Judge who obviously and
painstakingly reviewed the video, the investigative file
and the audio, all of which were produced by the
defendants but not explained by the arresting officers.
Also the video and audio that were submitted were not
synchronized and could not be viewed chronologically
which might explain the published opinion’s divergence
from the trial court’s detailed facts.
Palko and Hudgens argued to the Fifth Circuit a set
of facts that were completely contrary to those found by
the magistrate judge and the trial court. The video

8

The dissents overlook the fundamental reason most of these facts
should not be part of the analysis: we consider only what the
officers knew at the time of their challenged conduct. “Facts an
officer learns after the incident ends—whether those facts would
support granting immunity or denying it—are not relevant.”
Hernandez v. Mesa, 137 S. Ct. 2003, 2007, 198 L. Ed. 2d 625 (2017)
(per curiam); Cole v. Carson, 935 F.3d 444, 456 (5th Cir. 2019)

9
link provided here, tracks the sequence of events from
start to finish.9
Just as in Cole, the facts are very much in dispute
in this case. Just as in Cole, Palko and Hudgins’ stories
of the events evolved from the beginning.
As the majority in Cole states: relitigating the
district court’s assessment of factual disputes is not our
role on interlocutory review. The district court here
defined the facts in a 21-page opinion, finding genuine
disputes regarding these facts. Cole v. Carson, 935
F.3d 444, 455 (5th Cir. 2019)
Just as was condemned in Cole, the officers here
relitigated the facts as found by the trial court. The
trial court in this case found: Although Defendant
Officers now offer a different description of the events
seen on the video, this does not change the objective
video evidence: a seated, handcuffed, and disabled
person was forcibly brought to the ground by two police
officers and suffered a serious laceration to the head.10
The majority in Cole stated: On an appeal of a
denial of summary judgment on the basis of qualified
immunity, our jurisdiction is limited to examining the
materiality of factual disputes the district court
determined were genuine. “[I]n an interlocutory appeal
we cannot challenge the district court’s assessments
9

https://drive.google.com/drive/folders/1n-Z4Cxx8CqSe5VpmBr7pJEw1hhOP6k4?usp=sharing
10

This opinion stated preexisting law must dictate, that is truly
compel … that what the defendant is doing violates federal law in
the circumstances.

10
regarding the sufficiency of the evidence—that is, the
question whether there is enough evidence in the
record for a jury to conclude that certain facts are
true.” “[W]e lack jurisdiction to resolve the genuineness
of any factual disputes” and “consider only whether the
district court erred in assessing the legal significance
of the conduct that the district court deemed
sufficiently supported for purposes of summary
judgment.” Cole v. Carson, 935 F.3d 444, 452 (5th Cir.
2019)
One Cole dissent noted:
The Supreme Court demands precedential
specificity. But it’s all a bit recursive. There’s no
earlier similar case declaring a constitutional
violation because no earlier plaintiff could find
an earlier similar case declaring a constitutional
violation. Section 1983 meets Catch-22. Cole v.
Carson, 471.
This case is not donning that straight jacket:
Palko and Hudgens weren’t forced to make split
second decisions. Their plan was calculated during
lengthy discussions with the case worker while DupuisMays showered. They never spoke to a psychiatrist.
The plan to arrest Dupuis-Mays was calculated and
deceptive. Rather than advise Dupuis-Mays he was
being arrested, the officers tricked Dupuis-Mays into
wearing handcuffs, then offered a “ride along” in the
police car to listen to music.

11
The law is clearly established:
Freedom from bodily restraint has always
been at the core of the liberty protected by the
Due Process Clause from arbitrary
governmental action. Youngberg v. Romeo, 457
U.S. 307, 316, 73 L. Ed. 2d 28, 102 S. Ct. 2452
(1982). “It is clear that commitment for any
purpose constitutes a significant deprivation of
liberty that requires due process protection.”
Jones, supra, at 361 (internal quotation marks
omitted). We have always been careful not to
“minimize the importance and fundamental
nature” of the individual’s right to liberty.
Salerno, supra, at 750. Foucha v. Louisiana, 504
U.S. 71, 80, 112 S. Ct. 1780, 1785 (1992)
Because the trial court is burdened with the
responsibility of detailing the facts and the law, any
officer who appeals the denial should be required to
limit his appeal to the facts as found by the trial court
and not reinvent the facts so as to enter the back door
using the collateral order doctrine. If the published
opinion in this case had followed the majority of Cole,
there would have been a completely different result in
this case.
CONCLUSION
Because certiorari will probably be granted in Cole,
petitioner prays this Court grant the petition for
rehearing and order full briefing and arguments on the
merits. Alternatively, post decision in Cole, the matter
should be reversed and remanded to the trial court if

12
the Court agrees with the majority that the facts aren’t
to be relitigated.
Respectfully submitted,
John E. Wall, Jr.
Counsel of Record
LAW OFFICES OF JOHN E. WALL, JR.
5728 Prospect Avenue
Suite 2001
Dallas, Texas 75206
(214) 887-0100
jwall@jwall-law.com
Counsel for Petitioner

13
CERTIFICATE OF GOOD FAITH
The undersigned hereby certifies that this Petition
for Rehearing is restricted to the ground specified in
Rule 44.2 of the Rules of the Supreme Court and is
presented in good faith and not for delay.

~ J,,, f lv...u ,c!J ~\i'

J
E. Wall, Jr.
Counsel of Record

LAW OFFICES OF JORN E. WALL, JR.

5728 Prospect Avenue
Suite 2001
Dallas, Texas 75206
(214) 887-0100
jwall@jwall-law.com

Counsel for Petitioner

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion, Concurring Opinions, and
Dissenting Opinions in the United
States Court of Appeals for the Fifth
Circuit
Randy Cole; Karen Cole; Ryan Cole v.
Carl Carson (No. 14-10228)
Randy Cole; Karen Cole; Ryan Cole v.
Michael Hunter; Martin Cassidy
(No. 15-10045)
(August 20, 2019) . . . . . . . . . . . . . App. 1

App. 1

APPENDIX A
REVISED August 21, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed August 20, 2019]
No. 14-10228
_____________________________________________
RANDY COLE; KAREN COLE; RYAN COLE, )
Plaintiffs-Appellees
)
)
v.
)
)
CARL CARSON,
)
Defendant-Appellant
)
____________________________________________ )
No. 15-10045
_____________________________________________
RANDY COLE; KAREN COLE; RYAN COLE, )
Plaintiffs-Appellees
)
)
v.
)
)
MICHAEL HUNTER; MARTIN CASSIDY,
)
Defendants-Appellants
)
____________________________________________ )
Appeals from the United States District Court
for the Northern District of Texas

App. 2
ON PETITION FOR REHEARING EN BANC
FOLLOWING REMAND FROM THE UNITED
STATES SUPREME COURT
Before STEWART, Chief Judge, and
HIGGINBOTHAM, JONES, SMITH, DENNIS,
CLEMENT, OWEN, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, HO,
DUNCAN, ENGELHARDT, and OLDHAM, Circuit
Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge, joined
by CARL E. STEWART, Chief Judge, and JAMES L.
DENNIS, EDITH BROWN CLEMENT, JENNIFER
WALKER ELROD, LESLIE H. SOUTHWICK,
CATHARINA HAYNES, JAMES E. GRAVES,
STEPHEN A. HIGGINSON, GREGG COSTA, and
KURT D. ENGELHARDT, Circuit Judges:1
The Supreme Court over several years has
developed protection from civil liability for persons
going about their tasks as government workers in the
form of immunity; not the absolute immunity enjoyed
by prosecutors and judges, but a qualified immunity.
Today we again repair to issues inherent in the
qualification. The doctrine protects at the earliest stage
of litigation at which the defense’s application is
determinable. To that end, courts have developed
procedures and pretrial practices, including appellate
review of pretrial denials, otherwise interlocutory and
unappealable, and a reply to an answer under Rule 7(a)
on order of the district court, particularized to address
1

Judges Higginbotham and Clement, now Senior Judges of this
court, are participating as members of the original panel.

App. 3
the defense of immunity in a motion to dismiss or for
summary judgment. When those processes do not yield
pretrial resolution, as with competing factual
narratives, the full reach of qualified immunity gives
way to a trial, the first point at which its application is
determinable. And in obeisance to constitutional
mandate, the worker’s defense enjoys a right to the
protection of a jury—long a bastion interposed between
the state and person, and assured by the Founders.
And it signifies that today the district judge has
multiple ways to present fully the claims and defenses
to a jury to ensure the government worker a full draw
upon his immunity defense,2 including resolution of the
competing factual narratives, one of which—or a meld
of both—may foreclose liability.3
In this case, police officers from Sachse, Texas argue
that the district court should have sustained their
defense of qualified immunity on their pretrial motions
to dismiss and for summary judgment. Ryan Cole and
his parents Karen and Randy (collectively “the Coles”)
sue Officer Carl Carson, Lieutenant Martin Cassidy,
and Officer Michael Hunter of the Sachse Police
Department under 42 U.S.C. § 1983. The Coles allege
that the officers violated Ryan Cole’s Fourth and

2

See FED. R. CIV. P. 49; Fifth Circuit Civil Pattern Jury
Instructions 10.3. See also McCoy v. Hernandez, 203 F.3d 371, 376
(5th Cir. 2000).
3

In any treatment of the jury’s role in stepping between stateafforded process and an individual defendant, it bears emphasis
that the district judge can impanel a jury of at least six and as
many as twelve members whose verdict, absent the parties’
agreement otherwise, must be unanimous.

App. 4
Fourteenth Amendment rights during an incident in
which Cassidy and Hunter shot Ryan without warning,
and then lied about what happened. The officers filed
dispositive pretrial motions in the district court,
asserting the defense of qualified immunity. The
district court denied these motions, concluding that
immunity could not be determined at this stage of the
proceeding. In Cole I, a panel of our court affirmed the
denial of summary judgment as to the Coles’ Fourth
Amendment excessive-force claim and the denial of the
motion to dismiss the Coles’ Fourteenth Amendment
false-charge claim, but reversed denials of the motion
to dismiss the Coles’ Fourth Amendment and Brady
claims attacking the alleged fabrication of evidence.4
The Supreme Court vacated Cole I, and remanded for
consideration in light of its intervening decision in
Mullenix v. Luna.5 On remand, the panel affirmed the
denial of summary judgment as to the excessive-force
claim. Because the Coles’ other claims were unaffected
by the reasoning of Mullenix, the panel reinstated
Cole I’s holdings on the fabrication-of-evidence claims.
We reheard this case en banc to reconsider disposition
of the Coles’ excessive-force claim in light of Mullenix.
We conclude that it will be for a jury, and not
judges, to resolve the competing factual narratives as
detailed in the district court opinion and the record as

4

Cole v. Carson (“Cole I”), 802 F.3d 752 (5th Cir. 2015), vacated
sub nom. Hunter v. Cole, 137 S. Ct. 497 (2016).
5

Hunter v. Cole, 137 S. Ct. 497 (2016) (granting certiorari,
vacating, and remanding for consideration in light of Mullenix v.
Luna, 136 S. Ct. 205 (2015) (per curiam)).

App. 5
to the Coles’ excessive-force claim. Limited by our
jurisdiction to the materiality of factual disputes, we
AFFIRM the denial of summary judgment on this claim
and DISMISS Cassidy and Hunter’s appeal. The Coles’
remaining claims are unaffected by the reasoning of
Mullenix, and so, as in Cole I, we AFFIRM denial of the
motion to dismiss the Coles’ Fourteenth Amendment
false-charge claim; REVERSE denial of the motion to
dismiss the Coles’ Fourth Amendment and Brady
fabrication-of-evidence claims based on qualified
immunity; and return the case to the district court for
trial and resolution of issues consistent with this
opinion.
I
A.
On October 25, 2010, at around 10:30 a.m., the
Sachse Police Department called available units to the
neighboring town of Garland, Texas. There police were
searching for Ryan Cole, a seventeen-year-old white
male, reported to be walking in the neighborhood with
a handgun. Officer Michael Hunter responded by
proceeding immediately to the Garland neighborhood.
In a statement given on the day of the incident, Hunter
related that on arriving in the neighborhood, he
overheard a civilian stating that Ryan had given up one
of his guns, and that he had unsuccessfully tried to
persuade Ryan to not keep his handgun. Hunter
searched the area, and saw two officers following Ryan,
who was walking away from them holding his gun to
his head, approaching a wooded area along Highway
78. Although told by officers that things were under
control, Hunter volunteered to go behind the wooded

App. 6
area and possibly intercept Ryan, and suggested that
Officer Carl Carson, who was also present, join him.
Four years later, after this litigation had
commenced, Hunter for the first time recalled that the
civilian he had overheard had described an altercation
with Ryan in which Ryan had threatened him. He also
then for the first time recalled hearing police-radio
transmissions indicating that officers were protecting
nearby schools because of “[Ryan]’s dangerous conduct
which posed a risk of serious harm to a great many
innocent in the vicinity.” Hunter otherwise learned
nothing “that would cause [him] to believe [Ryan] was
violent or wanted to hurt anyone.”6 Hunter understood
that Ryan was suicidal, and, four years after the
incident, he also raised the possibility that Ryan was
using suicide as a pretext to evade the police.
Meanwhile, Lieutenant Martin Cassidy had also
heard the original dispatcher’s summons. Cassidy
called the Sachse Police Department for more
information. On the day of the incident, Cassidy swore
that he learned “this subject had shown up at [a]
residence with a handgun and had just recently been
seen walking away.” But, four years later, after this
litigation had commenced, like Hunter, Cassidy
remembered learning more, including that Ryan “had
threatened to shoot anyone who tried to take his gun”;
had refused an order to drop his weapon; and might be
headed for Sachse High School “to possibly engage in

6

In a 2014 declaration, Hunter stated that Cole refused a police
officer’s order to surrender his weapon. Hunter did not testify that
he knew this fact at the time.

App. 7
violence.” Cassidy also decided to intercept Ryan on
Highway 78.
The three officers separately arrived at the side of
Highway 78 at around the same time. Hunter parked
his motorbike and drew his duty weapon; Cassidy also
drew his firearm and advised Carson to be ready to use
his taser. The officers started walking along the tree
line. A steep embankment rose from railroad tracks to
the area along Highway 78. Ryan would have to climb
this embankment to approach the tree line. Cassidy
and Hunter used both the edge of the embankment and
the vegetation to conceal themselves as they walked.
Hunter also removed his white motorcycle helmet in
order to be less conspicuous. Cassidy soon heard a
message over the police radio: Ryan was ascending to
the tree line. Hunter heard movement in the brush,
and signaled to his colleagues.
What occurred next is disputed. Viewing the
summary judgment evidence and drawing reasonable
inferences in the light most favorable to the nonmovant Coles, the district court determined that a
reasonable jury could find the following: Ryan backed
out from the tree line in front of Hunter and Cassidy,
“unaware of the Officers’ presence.”7 Ryan was holding
his handgun pointed to his own head, where it

7

Cole v. Hunter, 68 F. Supp. 3d 628, 645 (N.D. Tex. 2014). Viewing
the evidence in a light most favorable to the Coles, the district
court relied on the physical and audio evidence as interpreted by
the Coles’ expert crime-scene reconstructionist Thomas Bevel who
opined that “no evidence . . . would indicate Mr. Cole was or could
have been aware of the presence of the police officers prior to the
time he was shot.”

App. 8
remained.8 “[Ryan] never pointed a weapon at the
Officers,”9 and “never made a threatening or
provocative gesture towards [the] Officers.”10 “Officers
[Cassidy and Hunter] had the time and opportunity to
give a warning” for Ryan to disarm himself.11 However,
the officers provided “no warning . . . that granted
[Ryan] a sufficient time to respond,”12 such that Ryan
“was not given an opportunity to disarm himself before
he was shot.”13 Hunter and Cassidy then shot Ryan
multiple times. Officer Hunter’s first shot struck Ryan
as he was oriented away from the officers at a 90degree angle—that is, he was not facing Officer
Hunter.14 Following impact of the first shot, as Ryan’s
body turned or fell towards Hunter, he shot him a
second time.15 As an involuntary reflex to being shot,

8

Cole, 68 F. Supp. 3d at 644.

9

Cole, 68 F. Supp. 3d at 644; id. at 645 (“[T]he evidence supports
Plaintiffs’ argument that Cole did not know of the Officers’
presence.”).
10

Cole, 68 F. Supp. 3d at 645–46.

11

Id. at 645. A reasonable jury could find the officers had up to five
seconds during which they could have called out to Cole, sufficient
time to make a warning according to Cole’s expert.
12

Cole, 68 F. Supp. 3d at 645.

13

Id. 644–45 (“Cole was shot before he had an opportunity to
disarm himself.”).
14

Id. at 644.

15

Cole, 68 F. Supp. 3d at 644.

App. 9
Ryan pulled the trigger, shooting himself in his
temple.16 But the officers did not know that.
Following the shooting, the three officers remained
together at the scene. The Coles allege that during this
time the officers conspired to insulate Cassidy and
Hunter from liability with a fabricated narrative in
which Ryan was facing Hunter and pointed his weapon
at the officer, at which point Cassidy and Hunter fired
on Ryan in defense. Eventually, members of the
Garland Police Department arrived and took control of
the scene, but did not follow the standard procedure of
separating witnesses to ensure independent
recollections. Instead, Cassidy and Hunter were
allowed to return to their police station together. Later
that day, the officers provided statements to
investigators. Hunter stated that he had no chance to
issue a command to Ryan. Cassidy and Carson,
however, swore that, when Ryan backed out from the
brush, they heard Hunter shout a warning to him.
Hunter and Cassidy stated that Ryan then turned
towards Hunter and pointed his handgun at Hunter, at
which point both officers—fearing for Hunter’s
life—opened fire defensively.17
The Dallas County District Attorney presented the
officers’ narrative to a grand jury, which no-billed the
officers and charged Ryan with felony aggravated
assault of a public servant. As a result of the charge,

16

17

Id.

Carson stated he could not see Cole’s movement because Hunter
obstructed his line of sight.

App. 10
Ryan, incapacitated in intensive care, was placed under
house arrest. About a month after the indictment,
investigators received a ballistics report from the crime
lab. The ballistics analysis, taken together with
stippling observed around Ryan’s head wound, made
clear that Ryan had shot himself in the temple,
confounding the officers’ account.18 Dallas County
prosecutors then dropped the aggravated assault
charge, accepting Ryan’s plea to misdemeanor unlawful
carry of a weapon, a $500 fine, and forfeiture of his
handgun.
Ryan suffered permanent injuries, including
cognitive impairment, partial paralysis, and other
serious mental and physical disabilities.
B.
The Coles brought, inter alia, four Section 1983
claims against the officers. First, they allege a violation
of Ryan’s Fourth Amendment right against the use of
excessive force arising from the shooting. Second, the
Coles allege a violation of Ryan’s Fourteenth
Amendment right against the imposition of false
charges arising from the fabrication of evidence. Third,
they allege a violation of Ryan’s Fourth Amendment
right against unreasonable seizures arising from the
fabrication of evidence. Fourth, they allege a Brady
violation arising from the fabrication of evidence. The
officers filed a motion to dismiss these claims under
Rule 12(b)(6), asserting qualified immunity defenses.
The district court denied the motion in a January 2014
18

Stippling refers to a discoloration of the skin caused by hot gases
and residue released immediately around a discharging firearm.

App. 11
Memorandum Opinion and Order.19 Carson alone
appealed the denial of the motion to dismiss the Coles’
three fabrication-of-evidence claims based on qualified
immunity. The district court stayed these fabricationof-evidence claims pending Carson’s appeal, allowing
the Coles limited discovery against Cassidy and
Hunter’s qualified immunity defenses to the excessiveforce claim. With that discovery complete, the two
officers moved for summary judgment, rearguing
qualified immunity. The district court denied their
motion and Cassidy and Hunter appealed.
The officers’ appeals were consolidated. In 2015, in
Cole I, a panel of this court affirmed the district court’s
denial of summary judgment on the Coles’ excessiveforce claim, affirmed denial of the motion to dismiss the
Coles’ Fourteenth Amendment false-charge claim, and
reversed the denial as to the Coles’ Fourth Amendment
and Brady fabrication-of-evidence claims, finding the
qualified immunity defense applicable for these claims.
The officers petitioned the Supreme Court for a writ of
certiorari. In November 2016, the Supreme Court
granted certiorari, vacated the panel’s judgment, and

19

The Coles filed an initial complaint in September 2012. The
officers moved to dismiss or in the alternative requested that the
district court order a Rule 7(a) reply to the immunity defense. The
district court then afforded the Coles opportunity to file a Rule 7
reply or amended complaint. The Coles filed an amended
complaint. The officers then filed a second motion to dismiss.

App. 12
remanded the case for further consideration in light of
Mullenix v. Luna,20 decided in the intervening time.21
On remand from the Supreme Court, recognizing
that its jurisdiction was limited to determining the
materiality of factual disputes that the district court
determined were genuine, the panel once again held
that the applicability of qualified immunity for Cassidy
and Hunter could not be determined at the summary
judgment stage.22 Finding the Supreme Court’s remand
order reached no further, the panel reinstated the
Cole I opinion on the Coles’ three fabrication-ofevidence claims.23 The officers moved for rehearing en
banc, which we granted.24

20

136 S. Ct. 305 (2015).

21

As this court and others have acknowledged, when the Supreme
Court grants, vacates, and remands (“GVRs”) a case, it does not
make a decision on the merits of the case nor dictate a particular
outcome. See Diaz v. Stephens, 731 F.3d 370, 378 (5th Cir. 2013);
Kenemore v. Roy, 690 F.3d 639, 641–42 (5th Cir. 2012); see also
Texas v. United States, 798 F.3d 1108, 1116 (D.C. Cir. 2015); In re
Whirlpool Corp. Front-Loading Washer Prods. Liab. Litig., 722
F.3d 838, 845 (6th Cir. 2013); Gonzalez v. Justices of Mun. Court
of Bos., 420 F.3d 5, 7 (1st Cir. 2005).
22

Cole v. Carson, 905 F.3d 334, 347 (5th Cir. 2018), reh’g granted,
915 F.3d 378, 379 (5th Cir. 2019).
23

Id. at 341–42.

24

Cole, 915 F.3d at 379.

App. 13
II
A.
We hear this case on remand from the Court for
further consideration in light of Mullenix. We do not
reach issues unaddressed by the mandate on remand,25
and so we hold as in Cole I with respect to the Coles’
three fabrication-of-evidence claims. First, we affirm
the district court’s denial of the motion to dismiss the
Coles’ Fourteenth Amendment claim regarding the
imposition of false charges.26 Second, finding qualified
immunity applicable, we reverse the denial of the
motion to dismiss the Coles’ claim that the alleged
fabrication of evidence violated the Fourth

25

Appellants argue that the Supreme Court’s 2017 decision in
Manuel v. City of Joliet, 137 S. Ct. 911 (2017), changes the legal
landscape and justifies revisiting the Coles’ Fourteenth
Amendment false-charge claim. Manuel holds that “pretrial
detention can violate the Fourth Amendment not only when it
precedes, but also when it follows, the start of legal process in a
criminal case,” and, therefore, that the plaintiff in that case “stated
a Fourth Amendment claim when he sought relief not merely for
his (pre-legal-process) arrest, but also for his (post-legal-process)
pretrial detention.” Manuel, 137 S. Ct. at 918–19. It does not hold
that the Fourth Amendment provides the exclusive basis for a
claim asserting pre-trial deprivations based on fabricated evidence.
We have already so determined in Jauch v. Choctaw County:
“Manuel does not address the availability of due process challenges
after a legal seizure, and it cannot be read to mean, as Defendants
contend, that only the Fourth Amendment is available to pre-trial
detainees.” Jauch v. Choctaw Cty., 874 F.3d 425, 429 (5th Cir.
2017), cert. denied sub nom. Choctaw Cty. v. Jauch, 139 S. Ct. 638
(2018).
26

See Cole I, 802 F.3d at 766–74.

App. 14
Amendment.27 Lastly, finding qualified immunity
applicable, we reverse the denial of the motion to
dismiss the Coles’ claim that the alleged fabrication of
evidence entailed a Brady violation.28
B.
The qualified immunity inquiry includes two parts.
In the first we ask whether the officer’s alleged conduct
has violated a federal right; in the second we ask
whether the right in question was “clearly established”
at the time of the alleged violation, such that the officer
was on notice of the unlawfulness of his or her
conduct.29 The officer is entitled to qualified immunity
if there is no violation, or if the conduct did not violate
law clearly established at the time.30
On an appeal of a denial of summary judgment on
the basis of qualified immunity, our jurisdiction is
limited to examining the materiality of factual disputes
the district court determined were genuine.31 “[I]n an
interlocutory appeal we cannot challenge the district
court’s assessments regarding the sufficiency of the

27

See id. at 764–65.

28

See id. at 765.

29

Tolan v. Cotton, 572 U.S. 650, 655–56 (2014) (per curiam).

30

Id.

31

Lytle v. Bexar Cty., Tex., 560 F.3d 404, 408 (5th Cir. 2009); see
also id. (“If the determination of qualified immunity would require
the resolution of a genuinely disputed fact, then that fact is
material and we lack jurisdiction over the appeal.”).

App. 15
evidence—that is, the question whether there is
enough evidence in the record for a jury to conclude
that certain facts are true.”32 “[W]e lack jurisdiction to
resolve the genuineness of any factual disputes” and
“consider only whether the district court erred in
assessing the legal significance of the conduct that the
district court deemed sufficiently supported for
purposes of summary judgment.”33 Like the district
court, we must view the facts and draw reasonable
inferences in the light most favorable to the plaintiff
and ask whether the defendant would be entitled to
qualified immunity on those facts.34 The Supreme
Court has summarily reversed this court for failing to
take the evidence and draw factual inferences in the
non-movants’ favor at the summary judgment stage.35
In doing so, the Court emphasized that the
requirement is no less binding “even when . . . a court
decides only the clearly-established prong of the
standard.”36 Within the limited scope of our inquiry,
review is de novo.37

32

Trent v. Wade, 776 F.3d 368, 376 (5th Cir. 2015) (quoting Kinney
v. Weaver, 367 F.3d 337, 347 (5th Cir. 2004) (en banc)).
33

Id. (internal quotations omitted).

34

Lytle, 560 F.3d at 409.

35

Tolan, 572 U.S. at 660.

36

Id. at 657.

37

Trent, 776 F.3d at 376.

App. 16
As instructed, we turn to the guidance provided by
the Supreme Court in Mullenix. In that case, the Court
reviewed a denial of qualified immunity to an officer
who had shot and killed a fugitive in a car chase. This
court had decided that the officer violated the clearly
established rule that deadly force was prohibited
“against a fleeing felon who does not pose a sufficient
threat of harm to the officer or others.”38 The officer in
Mullenix reasonably perceived some threat of harm,
but we had held the threat was not “sufficient.” The
Supreme Court reversed our decision. It found that the
rule we articulated lacked a referent to define the
“sufficiency” of threats.39 Precedents provided a “hazy
legal backdrop,” at best.40 Given these deficient sources,
an officer could not reasonably derive an applicable
rule to govern his or her conduct in the situation.41
Finding that we had defined the applicable rule with
too much “generality,”42 the Court reversed our holding
that the officer had violated clearly established law.43
Under Mullenix, application of clearly established
law is undertaken with close attention to the relevant

38

Mullenix, 136 S. Ct. at 308–09 (internal quotation marks
omitted).
39

Id. at 309.

40

Id. at 309–10.

41

Id.

42

Id. at 311.

43

Id. at 312.

App. 17
legal rule and the particular facts of the case. Here,
based on the facts taken in the light most favorable to
the non-movant Coles, and with reasonable inferences
drawn in their favor, the district court determined
there were genuine factual disputes as to Ryan’s and
the officers’ conduct, upon which a reasonable jury
could find “[Ryan] . . . did not pose an immediate threat
to the officers” when they opened fire.44 It held that “on
October 25, 2010, the date of the shooting, the law was
clearly established” that “shooting a mentally disturbed
teenager, who was pointing a gun the entire time at his
own head and facing away from the officer, in an open
outdoor area, and who was unaware of the officer’s
presence because no warning was given prior to the
officer opening fire, was unlawful.”45 As we will detail,
the officers ask us to consider a different set of facts,
but we cannot do so. We lack jurisdiction to reconsider
the district court’s factual determinations on an appeal
from denial of summary judgment on qualified
immunity.
Tennessee v. Garner announced the principle that
the use of deadly force is permitted only to protect the
life of the shooting officer or others: “Where the suspect
poses no immediate threat to the officer and no threat
to others, the harm resulting from failing to apprehend
him does not justify the use of deadly force to do so.”46
Garner also requires a warning before deadly force is

44

Cole, 68 F. Supp. 3d at 645.

45

Id. at 643.

46

Tennessee v. Garner, 471 U.S. 1, 11 (1985).

App. 18
used “where feasible,”47 a critical component of risk
assessment and de-escalation. The Supreme Court has
repeatedly stated that this rule can be sufficient in
obvious cases, and this court has applied it in such
cases, without dependence on the fact patterns of other
cases.48
The summary judgment facts, as determined by the
district court, are that Ryan posed no threat to the
officers or others to support firing without warning.
The “Officers had the time and opportunity to give a
warning and yet chose to shoot first instead.”49 This is
an obvious case. Indeed, Officer Hunter conceded that
he would have had no basis to fire upon Ryan unless
Ryan had been facing him and pointing a gun at him.
This case is obvious when we accept the facts as we
must. It is also informed by our precedent. Before 2010,
Baker v. Putnal established clearly that Cassidy’s and
Hunter’s conduct—on the facts as we must take them
at this stage—was unlawful. For in Baker, members of
the public told Officer Michael Putnal, a police officer
patrolling a crowded Galveston beach area during
spring break, that “someone had entered the crowd

47

Id. at 11–12; see also Colston v. Barnhart, 130 F.3d 96, 100 (5th
Cir. 1997).
48

See White v. Pauly, 137 S. Ct. 548, 552 (2017) (per curiam);
Mason v. Lafayette City-Parish Consol. Gov’t, 806 F.3d 268, 277–78
(5th Cir. 2015); cf. Hope v. Pelzer, 536 U.S. 730, 741 (2002);
Newman v. Guedry, 703 F.3d 757, 764 (5th Cir. 2012).
49

Cole, 68 F. Supp. 3d at 645.

App. 19
with a pistol-gripped shotgun.”50 Minutes later, Officer
Putnal heard gunfire and saw the crowd scurrying.51
There was “a good deal of confusion on the beach.”52
Two people directed the officer to a car in which the
gunman was supposedly sitting.53 Putnal then saw
Wendell Baker Jr. and another man sitting in a truck
parked on the beach.54 The parties disputed what
happened next. Putnal stated he saw Baker loading a
magazine into a handgun, that he warned Baker to
freeze or drop the gun, that Baker instead turned the
gun upon Putnal, at which point Putnal fired, killing
Baker.55 However, witnesses “state[d] that [Baker] took
no threatening action . . . as the officer approached the
truck,” that Putnal issued no warning to Baker, and
that “Baker . . . may have barely had an opportunity to
see Putnal before [the officer] fired his gun.”56 The
parties did not dispute that Putnal had been searching
for a gunman, and that a gun had been recovered from
Baker’s seat, although they disputed whether and how
Baker had been holding it, that is, whether he pointed

50

Baker v. Putnal, 75 F.3d 190, 193 (5th Cir. 1996).

51

Id.

52

Id. at 198.

53

Id. at 193.

54

Id.

55

Id. at 198.

56

Id.

App. 20
it at Putnal.57 It was also undisputed that Baker was
turning to face Putnal from his seat, although medical
reports indicated from “the nature of the wounds . . .
that Baker . . . was not facing Putnal when he was
shot.”58 Baker’s survivors sued the officer, bringing,
inter alia, a Fourth Amendment excessive-force claim.59
The district court granted Putnal qualified immunity,
crediting his account that he had fired in response to
Baker turning and aiming the gun at him.60 On appeal,
we reversed and remanded the excessive-force claim for
trial.61 Recognizing the dispute as to the officer’s
warning, Baker’s turn, and the position of Baker’s gun,
we found “simply too many factual issues to permit the
Bakers’ § 1983 claims to be disposed of on summary
judgment.”62 “Chaos on the beach and Baker[’s] mere
motion to turn and face Putnal are not compelling
reasons to find that [the officer’s] use of force was not
excessive as a matter of law.”63 Viewing the facts and
drawing inferences “in the light most favorable to the
nonmoving party,” we held that “[t]he number of shots
and the nature of the wounds raise . . . more of a

57

Id.

58

Id.

59

Id. at 193.

60

Id. at 197.

61

Id. at 198.

62

Id.

63

Id.

App. 21
question of fact than a court may dispose of on
summary judgment.”64
The Supreme Court’s more recent qualified
immunity decisions do not shift this analysis. In Kisela
v. Hughes, police officers in Tucson, Arizona responded
to a call that a woman was behaving erratically with a
knife and that she had been hacking at a tree.65 When
officers arrived on scene, the suspect, Amy Hughes,
emerged from a house holding a large kitchen knife,
and approached to within “striking distance” of a
bystander in the driveway.66 One of the officers,
Andrew Kisela, whose further approach was impeded
by a chain-link fence, repeatedly ordered Hughes to
drop the knife, but Hughes did not follow his
commands.67 Kisela then fired on Hughes through the
fence.68 Hughes brought a Section 1983 excessive force
claim against Kisela.69 Reviewing a denial of qualified
immunity to Kisela, the Supreme Court held that, in
light of the officer’s limited knowledge of the situation
and Hughes’s refusal to follow his repeated commands
to drop the knife while within striking distance of the
bystander—obstinance that heightened the risk of

64

Id. at 198–99.

65

Kisela v. Hughes, 138 S. Ct. 1148, 1151 (2018) (per curiam).

66

Id.; id. at 1154.

67

Id. at 1151.

68

Id.

69

Id.

App. 22
immediate harm to another—the law did not clearly
establish that the officer’s resort to deadly force was
unlawful.70
In this case, Officers Cassidy and Hunter found
themselves in a search for a suicidal teenager who they
knew had already encountered fellow officers and
walked away from them with his gun to his head,
non-responsive, but without aggressive action. The
circumstances of the officers’ encounter with Ryan, as
in Baker, remain heavily disputed: as to whether Ryan
was aware of the officers, whether and how he turned
and aimed his gun, and whether Hunter warned Ryan
to disarm himself. The district court here defined the
facts in a 21-page opinion, finding genuine disputes
regarding these facts, and, viewing these disputes in a
light most favorable to the Coles, concluded that a
reasonable jury could find that Ryan made no
threatening or provocative gesture to the officers and
posed no immediate threat to them. Unlike in Kisela,
where the officer repeatedly warned an armed suspect
to disarm, yet that suspect, facing the officer and
hearing his warnings, refused to disarm, here the
district court concluded that a reasonable jury could
find Cassidy and Hunter opened fire upon Ryan
without warning, even though it was feasible. On these
facts, the officers’ conduct violates clearly established
law.
Rather than engage on the facts as we must take
them at the summary judgment stage, the officers
repeatedly argue from a different set of facts. While the

70

Id. at 1153.

App. 23
district court found that Ryan was initially facing away
from the officers when they fired the first shot, the
officers now describe his “armed turn towards Officer
Hunter.” While the district court found that Ryan kept
his gun aimed at his own head and never pointed it at
the officers, the officers now suggest that Ryan’s gun
was “below his head,” moving towards Hunter, and
then only momentarily turned back towards Ryan’s
head at the moment he fired (ignoring Hunter’s sworn
statement that he fired only when the gun was pointed
toward him—a story prosecutors accepted until a
ballistics report exposed its impossibility). And
although the district court found that Ryan was not
given an opportunity to disarm himself, the officers
contend that he was warned to disarm before being
shot. “Had the Officers delayed longer, reaction time
lag would have precluded their ability to stop [Ryan]
from shooting Officer Hunter,” they argue. Based on
this alternative set of facts, echoed again in oral
argument to us as a full court, and in the teeth of those
found by the district court, the officers now contend
Ryan posed a “deadly threat,” and no clearly
established law in 2010 put the officers’ response of
firing in self-defense beyond the law.
The Coles and amicus Cato Institute are correct
that it is beyond our jurisdiction to consider the
officers’ set of facts, a narrative evolving over time. “[I]f
an excessive force claim turns on which of two
conflicting stories best captures what happened on the
street,” the caselaw “will not permit summary
judgment in favor of the defendant official. . . . [A] trial

App. 24
must be had.”71 Whereas the officers will have a chance
to present their factual narrative—and to question the
Coles’—at trial, they cannot contest the facts in the
current appeal.72
The dissents also take issue with the disputed facts.
Judge Duncan focuses on what he terms “undisputed
pre-encounter events.” But, particularly in light of the
officers’ evolving stories, it is disputed whether any of
the events recounted were known to Hunter or Cassidy
when they fired on Ryan. The dissent cites to the
reports and affidavits of other officers and individuals
to describe the events occurring before Hunter and
Cassidy were called to the scene.73 But looking at the
evidence in the light most favorable to the Coles,
Hunter and Cassidy were not aware of the disturbance
71

Saucier v. Katz, 533 U.S. 194, 216 (2001) (Ginsburg, J.
concurring). see also Tolan, 572 U.S. at 660; id. at 662 (Alito, J.,
joined by Scalia, J., concurring in the judgment) (agreeing that
“summary judgment should not have been granted” in that case
because of the genuine issues of material fact); Lytle, 560 F.3d at
408–09.
72

Cf. Tolan, 572 U.S. at 660 (“The witnesses on both sides come to
this case with their own perceptions, recollections, and even
potential biases. It is in part for that reason that genuine disputes
are generally resolved by juries in our adversarial system. By
weighing the evidence and reaching factual inferences contrary to
[the plaintiff’s] competent evidence, the court below neglected to
adhere to the fundamental principle that at the summary
judgment stage, reasonable inferences should be drawn in favor of
the nonmoving party.”).
73

Recall that Hunter was a late-arriving officer who was not
instructed by the Sachse or Garland police departments to pursue
Ryan. See supra at 4.

App. 25
at the Coles’ house the previous night, the alleged
cache of weapons left at the Reeds’ house, Ryan’s
alleged suicidal threat, or his threat to shoot anyone
who came near him.
And of course, what matters is what the defendant
officers knew when they shot Ryan. See, e.g., White v.
Pauly, 137 S. Ct. 548, 550 (2017) (per curiam)
(“Because this case concerns the defense of qualified
immunity . . . the Court considers only the facts that
were knowable to the defendant officers.”); Kingsley v.
Hendrickson, 135 S. Ct. 2466, 2474 (2015) (stressing
that “a court must judge the reasonableness of the force
used from the perspective and with the knowledge of
the defendant officer”). The dissents overlook the
fundamental reason most of these facts should not be
part of the analysis: we consider only what the officers
knew at the time of their challenged conduct. “Facts an
officer learns after the incident ends—whether those
facts would support granting immunity or denying
it—are not relevant.” Hernandez v. Mesa, 137 S. Ct.
2003, 2007 (2017) (per curiam); see also Brown v.
Callahan, 623 F.3d 249, 253 (“An official’s actions must
be judged in light of the circumstances that confronted
him, without the benefit of hindsight.” (citing Graham
v. Connor, 490 U.S. 386, 396–97 (1989))). Despite the
many “red flags” listed by the dissents as known to
others, only those known to Hunter and Cassidy are
relevant to the qualified immunity analysis.
Judge Jones’s dissent fares no better in addressing
some of the key facts of the shooting itself. Contrary to
its assertion, the district court found that Ryan was
facing at a 90-degree angle away from the officers when

App. 26
he was first shot. Cole, 68 F. Supp. 3d at 644. As for the
“warning,” the district court found that a reasonable
jury could conclude that Ryan “was not given an
opportunity to disarm himself before he was shot.” Id.
Relitigating the district court’s assessment of factual
disputes is not our role on interlocutory review.
What Hunter and Cassidy knew before shooting at
Ryan, whether they warned him before doing so, and
what actions Ryan took before being shot are all
disputed. The district court must afford Cassidy and
Hunter qualified immunity at the earliest point the
defense’s applicability is determinable. Here, we have
not yet reached that point. It will be for a jury to
resolve what happened on October 25, 2010. The
district court did not err in denying the officers
qualified immunity at the summary judgment stage.
III
The district court determined that genuine disputes
of fact regarding Cassidy’s and Hunter’s entitlement to
qualified immunity remain. We AFFIRM the district
court’s denial of summary judgment on the Coles’
excessive-force claim and DISMISS Cassidy and
Hunter’s appeal; AFFIRM denial of the motion to
dismiss the Coles’ Fourteenth Amendment falsecharges claim; REVERSE denial of the motion to
dismiss the Coles’ Fourth Amendment and Brady
fabrication-of-evidence claims; and return the case to
the district court for trial and resolution of issues
consistent with this opinion.

App. 27
JENNIFER WALKER ELROD, Circuit Judge, joined by
CARL E. STEWART, Chief Judge, and EDITH
BROWN CLEMENT, CATHARINA HAYNES,
STEPHEN A. HIGGINSON, GREGG COSTA, and
KURT D. ENGELHARDT, Circuit Judges, concurring:
I concur fully in the majority opinion. Despite the
outcry of the dissenting opinions, there is no new law
being made or old law being ignored. The majority
opinion takes no position on the public policy issues of
the day regarding policing and the mentally ill. Rather,
it follows the longstanding en banc rule that “we lack
jurisdiction to review the genuineness of a fact issue” on
an interlocutory appeal of a denial of summary
judgment based on qualified immunity. Melton v.
Phillips, 875 F.3d 256, 261 (5th Cir. 2017) (en banc)
(quoting Allen v. Cisneros, 815 F.3d 239, 244 (5th Cir.
2016)); Kinney v. Weaver, 367 F.3d 337, 341, 346–47
(5th Cir. 2004) (en banc). As the able district court
determined, the facts are very much in dispute.

App. 28
EDITH H. JONES, Circuit Judge, joined by SMITH,
OWEN, HO, DUNCAN and OLDHAM, Circuit Judges,
dissenting:
What “clearly established law” says that only a
rogue cop would have shot at this mentally disturbed
teenager within 3 to 5 seconds as the teen emerged
from dense bushes ten to twenty feet away from Officer
Hunter and, with his finger on the trigger of a loaded
pistol pointed in the direction of his own head, began
turning in the officer’s direction? The majority state
this is an “obvious case” for the denial of qualified
immunity: the officers could not shoot without first
announcing themselves to Cole or looking down the
barrel of his gun. What is so obvious? Contrary to the
majority’s dangerously unrealistic proposition, “action
beats reaction” every time. Ontiveros v. City of
Rosenberg, 564 F.3d 379, 384 (5th Cir. 2009). Neither
we nor the Supreme Court has ever held that police
officers confronted in close quarters with a suspect
armed and ready to shoot must hope they are faster on
the draw and more accurate. The increasingly risky
profession of law enforcement cannot put those sworn
to “serve and protect” to a Hobson’s choice: place their
lives on the line by heroic forbearance or risk their
financial security in defense of lawsuits. The Supreme
Court has repeatedly stated in plain terms that the
purpose of qualified immunity is to prevent precisely
this quandary.
Respectfully dissenting, we are convinced that the
Supreme Court’s remand from the original panel
opinion denying immunity meant something; the
governing Supreme Court law is foursquare in the

App. 29
corner of Officers Hunter and Cassidy; and they were
entitled to receive summary judgment confirming their
immunity from suit, not simply from liability.1
I. Background
A. Undisputed facts
The majority opinion paints a picture of the relevant
facts that has evolved considerably from the first and
second panel opinions to this final majority version.
Compare Cole v. Carson, 802 F.3d 752, 755-56, 758 (5th
Cir. 2015), vacated sub nom. Hunter v. Cole, 137 S. Ct.
497 (Cole I), with Cole v. Carson, 905 F.3d 334, 337-340
(5th Cir. 2018) (Cole II), and supra. Qualified immunity
for the use of deadly force is assessed at the moment a
law enforcement officer confronts a suspect, Graham v.
Connor, 490 U.S. 386, 397, 109 S. Ct. 1865, 1872
(1989), but the officer’s understanding of facts leading
up to the event color the question whether “a
reasonable officer” could have believed his life or the
lives of others were endangered. White v. Pauly, 137 S.
Ct. 548, 550, 552 (2017). To the majority’s picture, it is
necessary to add undisputed facts recited in the prior
opinions and undisputed evidence from plaintiffs’
experts. Hornbook summary judgment law holds that
1

We do not challenge the majority’s decision to leave in place
fabricated evidence charges against these two officers and Officer
Carson. Only Carson, who was present at the encounter but did
not shoot, appealed the district court’s refusal to dismiss that
claim. The Supreme Court has not been clear on the constitutional
basis for such a claim, so we have no ground to criticize the
majority. Compare Manuel v. City of Joliet, 137 S. Ct. 911 (2017),
with McDonough v. Smith, 139 S. Ct. 2149 (2019), (refusing to rule
on the constitutional grounding of such claims).

App. 30
although disputed facts are viewed in the light most
favorable to non-movants, the entire record must be
considered. Scott v. Harris, 550 U.S. 372, 380, 127 S.
Ct. 1769, 1776 (2007). Further, this court reviews de
novo the materiality of the relevant facts. Foley v.
Univ. of Houston, Sys., 355 F.3d 333, 337 (5th Cir.
2003).
First, both officers who shot at Cole were aware
that he had mental issues. Officer Cassidy had learned
that Cole “had threatened to shoot anyone who tried to
take his gun and had refused an order to drop his
weapon.” Cole II, 905 F.3d at 338. Officer Hunter
watched Cole walk steadily down the train tracks
ignoring other police who were yelling at him to stop
and put down his 9 mm semi-automatic pistol. Both
officers were aware that a bulletin had been
disseminated about Cole to all law enforcement in
Garland and Sachse, and three nearby schools in the
vicinity of Highway 78, where Cole was heading, were
being protected. Cole II, 905 F.3d at 337-38.
Second, Cole emerged from the vegetation, unaware
of the officers’ presence, within ten to twenty feet of
Officer Hunter, and as he turned toward the officers,
three to five seconds elapsed. That’s less time than it
takes to read the preceding sentence. Cole initially
stood at a 90 degree angle to the police and then began
turning counterclockwise toward them. His movement
is conceded by plaintiffs’ expert, supported by the
ballistic evidence, and recounted in the district court
opinion. Cole II, 905 F.3d at 338 (“Cole began to turn
counterclockwise.”). Plaintiff’s expert opines this

App. 31
interval was sufficient for the officers to command Cole
to disarm and observe his reaction.
Third, his loaded pistol was pointed within thirty
inches toward his head, Cole I, 802 F.3d at 756, and
Cole’s finger was on the trigger.
Next, the officers fired seven shots, two of which hit
Cole. Officer Hunter’s first shot hit Cole in the left arm,
penetrating his body from the left. Another of Hunter’s
shots merely grazed Cole’s left arm as he continued to
turn and was facing Hunter. Cole II, 905 F.3d at 339.
Cole’s gun, according to the plaintiffs, involuntarily
discharged and hit him in the head, “leaving
stippling—gunpowder residue around the wound due
to the gun being fired from less than thirty inches
away.” Cole I, 802 F.3d at 756.
Finally, the bodycam evidence shows that some
officer began to issue a warning at about the time the
shooting started. Cole II, 905 F.3d at 338.
B. Prior panel reasoning
The district court denied qualified immunity to
Hunter and Cassidy for the shooting2 and refused to
dismiss the allegations of falsified evidence against
Hunter, Cassidy, and Carson.

2

Query why Officer Cassidy, whose shots didn’t hit the victim, can
be sued? This court has held that qualified immunity must be
applied individually to each defendant. Meadours v. Ermel, 483
F.3d 417, 421-22 (5th Cir. 2007). But no one raised the point here.

App. 32
The original panel opinion affirmed,3 concluding as
to the excessive force allegation that “if the Coles’
version of the evidence is believed, it was not
objectively reasonable to use deadly force against Ryan
Cole when the teenager emerged on foot from the
wooded area with a gun to his own head and turned
left.” With regard to immunity, the panel held that by
October 2010, “reasonable officers were on notice that
they could not lawfully use deadly force to stop a
fleeing person who did not pose a severe and immediate
risk to the officers or others, and they had many
examples of the sorts of threatening actions which
could justify deadly force. Turning left while unaware
of an officer’s presence is not among them.” Cole I, 802
F.3d at 762 (emphasis added) (footnote omitted). The
panel’s principal support for its legal reasoning was
Luna v. Mullenix, 773 F.3d 712 (5th Cir. 2014), rev’d
sub nom. Mullenix v. Luna, 136 S. Ct. 305 (2015).
According to the panel, “the central [disputed] issue” is
“whether Ryan pointed his gun at Officer Hunter.”
Cole I, 802 F.3d at 762. Absent such a threatening
gesture, Cole was said to present no sufficient threat.
Id.
The next panel opinion was formulated after the
Supreme Court reversed us in Mullenix on the grounds
that “none of our [the Supreme Court’s own] precedents
‘squarely governs’ the facts here. Given [the suspect’s]

3

The correct disposition if this court agrees there are material fact
issues in dispute regarding qualified immunity would be to dismiss
the appeal, because our appellate jurisdiction exists only over
questions of law. Mitchell v. Forsyth, 472 U.S. 511, 529-30, 105
S. Ct. 2806, 2816-17 (1985).

App. 33
conduct, we cannot say that only someone ‘plainly
incompetent’ or who ‘knowingly violate[s] the law’
would have perceived a sufficient threat and acted as
[the officer] did.” 136 S. Ct. at 310. On this second goround, the panel conceded the deficiency of the “no
sufficient threat” rule, but then concluded that, taken
in the light most favorable to the plaintiffs, Cole’s
conduct posed “no threat” when he was shot, Cole II,
905 F.3d at 343, and the officers therefore violated a
clearly established “no threat” rule. Tennessee v.
Garner is cited as the basis for this “bright line” rule.4
471 U.S. 1, 105 S. Ct. 1694 (1985). This opinion was
vacated by a vote to reconsider the case en banc.
C. The Current Majority Opinion
Pivoting yet again, the en banc majority opinion
commences with a paean to “the worker’s . . . right to
the protection of a jury,” not even bothering to cite
Supreme Court authorities that explain why qualified
immunity is immunity from suit, not just liability. The
majority opinion omits or ignores material undisputed
facts recited above—the knowledge of the officers,
Cole’s turning toward them, the significance of his
finger in a loaded pistol, and the three to five second

4

The panel curiously described so-called clearly established law in
both of its opinions with references to unpublished, non-precedential
Fifth Circuit cases. The Supreme Court has expressed uncertainty
over whether any circuit court cases, as opposed to its own decisions,
may set out “clearly established law.” See Dist. of Columbia v.
Wesby, 138 S. Ct. 577, 591 n. 8 (2018); Carroll v. Carman, 135 S. Ct.
348, 350 (2014); Reichle v. Howards, 566 U.S. 658, 665-66, 132 S. Ct.
2088, 2094 (2012). It is incredible that this court would cite our
avowedly non-precedential decisions for that purpose.

App. 34
interval—and hides behind the assertion that, relevant
to qualified immunity, there are “genuine factual
disputes as to Ryan’s and the officers’ conduct” such
that a reasonable jury could find that Cole posed no
“immediate threat” to the officers or others. Two
paragraphs later, asserting that Cole posed “no threat
. . . to support firing without warning,” the majority
deem this an “obvious case” for denial of immunity,
because the “officers had time and opportunity to give
a warning and yet chose to shoot first instead.” The
“obvious case” rationale again derives, in the majority’s
view, from Garner, fortified only by one Fifth Circuit
case and the Supreme Court’s decision in Kisela v
Hughes.5
DISCUSSION
The only legal question that needs to be addressed
by this court is whether, under the circumstances of
this five-second confrontation, every reasonable police
officer would have reasonably perceived no
life-threatening danger such that deadly force could be
used to incapacitate Cole without a preliminary
warning. Put otherwise, as a matter of law, was it
clearly established that officers may not fire on a
suspect, armed and ready to shoot a pistol, who is
turning in their direction with one of their brethren ten
to twenty feet away, unless the gun barrel points at
them or they first shout a warning and await his
response?

5

This dissent focuses on the majority opinion because Appellees’
briefing offered nothing in addition to the meager authorities cited
by the majority to support their “clearly established law” theory.

App. 35
The majority deny qualified immunity, seeming to
answer on the basis of “disputed fact issues” that Cole
posed “no threat.” The majority’s reasoning is at too
high a level of generality. And the majority ignore the
critical criterion for qualified immunity in Fourth
Amendment cases: the reasonableness of the officers’
reasonable perceptions. In sum, the majority here
double down on the mistakes that got our court
reversed in Mullenix.6
Before discussing these problems in detail, it is
necessary to recapitulate the reasoning behind the
Supreme Court’s qualified immunity cases. The
majority’s bare mention of the standards for qualified
immunity ignores the Court’s rationale for the defense.
Beginning with Monroe v. Pape in 1961, the Supreme
Court unleashed federal courts to enforce constitutional
commands against state actors pursuant to 42 U.S.C.
§ 1983. See Monroe v. Pape, 365 U.S. 167, 187, 81 S. Ct.
473, 484 (1961). A foreseeable consequence of
facilitating such lawsuits was that a deluge of litigation
would follow, at least some of it ill-founded or frivolous.
What was to be done to limit claims to those that might
have merit? The Court decided in Pierson v. Ray that
police officers sued under Section 1983 should enjoy
qualified immunity accorded at common law. 386 U.S.
547, 556-57, 87 S. Ct. 1213, 1219 (1967).

6

In Mullenix, the Supreme Court reversed this court and held an
officer entitled as a matter of law to qualified immunity when he
shot, and killed, a suspect fleeing from the police in his car at high
speed. Following Mullenix, the Supreme Court vacated the
judgment and remanded Cole I, no doubt in part because Cole I
heavily relied on the reversed panel decision in Mullenix.

App. 36
For over fifty years, the Court has developed the
standards of qualified immunity, well aware from the
beginning that “the local police officer” is “that segment
of the executive branch . . . that is most frequently and
intimately involved in day-to-day contacts with the
citizenry, and hence, most frequently exposed to
situations which can give rise to claims under Sec. 1983
. . . .” Scheuer v. Rhodes, 416 U.S. 232, 244-45, 94 S. Ct.
1683, 1691-92 (1974). The breadth of this shield
represents a deliberate balance between affording a
damages remedy for constitutional abuses and the
social and personal costs inflicted by meritless claims.
Anderson v. Creighton, 483 U.S. 635, 638, 107 S. Ct.
3034, 3038 (1987). The costs to society include the costs
of litigation, the diversion of limited public resources,
the deterrence of able people from going into public
service, and the danger that fear of being sued will
discourage officials from vigorously performing their
jobs. Id.; Harlow v. Fitzgerald, 457 U.S. 800, 814, 102
S. Ct. 2727, 2736 (1982). The devastating costs imposed
by unfounded lawsuits on officers otherwise entitled to
immunity are reputational, potentially employmentrelated, financial and emotional. For these reasons, the
Court has repeatedly explained that qualified
immunity shields public officials not just from liability
but from suit. See Mitchell v. Forsyth, 472 U.S. 511,
526, 105 S. Ct. 2806, 2815 (1985); Pearson v. Callahan,
555 U.S. 223, 231, 129 S. Ct. 808, 815 (2009)
(“Qualified immunity is lost if a case is erroneously
permitted to go to trial.”). Some in the lower federal
courts may disapprove of the Court’s half century of
authorities, but we may not functionally disregard
them.

App. 37
Nearly as venerable as the general defense of
qualified immunity are the decisions applying it to
Fourth Amendment claims against law enforcement
officers. Anderson v. Creighton affirmed in 1987 that a
law enforcement officer who participates in a
warrantless search may be entitled to qualified
immunity “if he could establish as a matter of law that
a reasonable officer could have believed the search to
be lawful.” 483 U.S. at 638, 107 S. Ct. at 3038. Justice
Scalia’s opinion reminded that “qualified immunity
protects all but the plainly incompetent or those who
knowingly violate the law.” Id. (internal quotation
marks omitted). In determining the objective legal
reasonableness of the allegedly unlawful action, “[i]t
should not be surprising . . . that our cases establish
that the right the official is alleged to have violated
must have been ‘clearly established’ in a more
particularized, and hence more relevant, sense: The
contours of the right must be sufficiently clear that a
reasonable official would understand that what he is
doing violates that right.” Id. at 640, 107 S. Ct. at 3039.
Two years later, the Court clarified that for alleged
Fourth Amendment excessive force violations,
reasonableness “must be judged from the perspective of
a reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” Graham, 490 U.S. at 396,
109 S. Ct. at 1872. The calculus of “reasonableness
must embody allowance for the fact that police officers
are often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.” Id. at 396-97, 109 S. Ct. at
1872. Ultimately, “the question is whether the officers’

App. 38
actions are ‘objectively reasonable’ in light of the facts
and circumstances confronting them . . . .” Id. at 397,
109 S. Ct. at 1872. Quoting these statements from
Graham, the Court later explained that the test for
qualified immunity for excessive force “has a further
dimension” in addition to the deferential, on-the-scene
evaluation of objective reasonableness. Saucier v. Katz,
533 U.S. 194, 205, 121 S. Ct. 2151, 2158 (2001). Justice
Kennedy explained: “The concern of the immunity
inquiry is to acknowledge that reasonable mistakes can
be made as to the legal constraints on particular police
conduct.” Id. “Qualified immunity operates in this case,
then, just as it does in others, to protect officers from
the sometimes hazy border between excessive and
acceptable force and to ensure that before they are
subjected to suit, officers are on notice their conduct is
unlawful.” Id. at 206, 121 S. Ct. at 2158 (internal
citation and quotation marks omitted).
Evaluating the qualified immunity defense is thus
a two-step process. The first is to determine whether
the Fourth Amendment has been violated by conduct
that, viewed from the officer’s perspective and
information at the time, is objectively unreasonable.7
The second step assesses the objective legal
reasonableness of the action, that is, whether every
reasonable officer would have known that the conduct
in question was illegal. See Pearson, 555 U.S. at 232,

7

For present purposes, we “address only the qualified immunity
question, not whether there was a Fourth Amendment violation in
the first place.” Mullenix, 136 S. Ct. at 308; Pearson, 555 U.S. at
236, 129 S. Ct. at 818 (constitutional violation or qualified
immunity may be decided first).

App. 39
129 S. Ct. at 815-16. The illegality must have been
apparent, as held in cases that are factually similar to
the situation confronting the officer. White, 137 S. Ct.
at 542. Immunity must be granted to all but the plainly
incompetent or those who knowingly violate the law.
The Supreme Court has enforced immunity where
officers acted negligently, Anderson, 483 U.S. at 641,
107 S. Ct. at 3039-40; or when they could have used
another method to subdue a suspect, Mullenix, 136
S. Ct at 310; or when the law governing their behavior
in particular circumstances is unclear. White, 137 S.
Ct. at 552. The Court emphasizes that the specificity of
the applicable “clearly established” rule is especially
important in Fourth Amendment cases. Mullenix, 136
S. Ct. at 308.
By denying plaintiffs their “day in court” at a
preliminary stage, qualified immunity operates as a
counterintuitive, albeit vital, defense. Thus, the
Supreme Court has regularly reversed denials of
qualified immunity where lower courts misapplied the
standards. See Wesby v. District of Columbia, 816 F.3d
96, 102 (D.C. Cir. 2016) (Kavanaugh, J., dissenting)
(citing eleven Supreme Court cases in five years
reversing lower courts in the qualified immunity
context including Mullenix v. Luna, 136 S. Ct. 305
(2015), Taylor v. Barkes, 135 S. Ct. 2042 (2015); City
and County of San Francisco, Calif. v. Sheehan, 135 S.
Ct. 1765 (2015); Carroll v. Carman, 574 U.S. 13, 135 S.
Ct. 348 (2014); Plumhoff v. Rickard, 572 U.S. 765, 134
S. Ct. 2012 (2014); Wood v. Moss, 572 U.S. 744, 134 S.
Ct. 2056 (2014); Stanton v. Sims, 571 U.S. 3, 134 S. Ct.
3 (2013); Reichle v. Howards, 566 U.S. 658, 132 S. Ct.
2088 (2012); Ryburn v. Huff, 565 U.S. 469, 132 S. Ct.

App. 40
987 (2012); Messerschmidt v. Millender, 565 U.S. 535,
132 S. Ct. 1235 (2012); Ashcroft v. al-Kidd, 563 U.S.
731, 131 S. Ct. 2074 (2011)). Unfortunately, the
majority here has fallen into the trap of “letting the
jury sort out the truth” despite the gravity of the
situation these officers faced.
As explained above, it is undisputed that the two
officers confronted and then shot at Cole as he emerged
from dense bushes ten to twenty feet from Officer
Hunter, unaware of their presence, and began to turn
in their direction. This all happened within three to
five seconds. While he turned, Cole held a loaded 9mm
semiautomatic pistol, finger on the trigger, pointed in
the direction of his own head. The officers knew he was
mentally distraught, had ignored other police
commands to disarm, had issued threats, and
proceeded walking in the direction of nearby schools.
For immunity purposes, the question phrased one
way is whether any reasonable officers could have
believed that Cole’s split-second turning toward them
posed a life-threatening danger such that lethal force
was necessary. Alternatively, what “clearly established
law” held as of October 2010 that under all of the
relevant circumstances, deadly force was not justified
unless either a warning was given and the suspect
allowed a chance to react, or the suspect actually
turned his loaded pistol on the officer? The answer here
directly parallels the Supreme Court’s reasoning in
Mullenix, which the majority seriously shortchanged.
In Mullenix, this court had denied qualified
immunity to a trooper whose shot fatally wounded a
suspect fleeing police in a high-speed chase. The

App. 41
Supreme Court’s basic criticism of the panel decision
was this: “In this case, the Fifth Circuit held that
Mullenix violated the clearly established rule that a
police officer may not use deadly force against a fleeing
felon who does not pose a sufficient threat of harm to
the officer or others. Yet this Court has previously
considered—and rejected—almost that exact
formulation of the qualified immunity question in the
Fourth Amendment context.” Mullenix, 136 S. Ct. at
308-09 (internal quotation marks and citation omitted).
The majority here posit as clearly established law,
indeed an “obvious case,” that a police officer may not
use deadly force—without prior warning—against an
armed, distraught suspect who, with finger in the pistol’s
trigger, posed “no threat” while turning toward an officer
ten to twenty feet away. But in Mullenix, the Supreme
Court reversed this court because “[t]he general principle
that deadly force requires a sufficient threat hardly
settles this matter.” Id. at 309. Likewise, here, the
majority’s “no threat” and “obvious case” conclusions do
not settle the matter of clearly established law.8
That the majority here purport to extract clearly
established law from Tennessee v. Garner was rebuked
in Mullenix. The Supreme Court corrected this court by
summary reversal because the Court itself had
summarily rejected applying the general standard of
Tennessee v. Garner to deny qualified immunity.
Mullenix, 136 S. Ct. at 309 (citing Brosseau v. Haugen,

8

Worse, it treats as a disputed fact issue for immunity purposes
what is clearly an issue of law. See Wyatt v. Fletcher, 718 F.3d 496,
502-03 (5th Cir. 2013).

App. 42
543 U.S. 194, 199, 125 S. Ct. 596, 599 (2004)). Instead,
the “correct inquiry” was whether it was clearly
established that the Fourth Amendment prohibited the
officer’s conduct in the precise situation she confronted.
Id. Including Mullenix and Brosseau, a series of
Supreme Court cases has held that Tennessee v. Garner
does not state “clearly established law” governing the
use of deadly force other than in Garner’s precise
factual context, the shooting of an unarmed burglary
suspect fleeing away from an officer.9 The confrontation
in this case with an armed, ready-to-fire suspect is
“obviously” different.
We fail to understand how the denial of qualified
immunity to Officers Hunter and Cassidy can be
rescued simply by intoning that this is an “obvious
case” under Garner. Garner affirmed the
constitutionality of deadly force against suspects when
necessary to protect the life of officers or others “if,
where feasible, some warning has been given.” 471 U.S.
at 11-12, 105 S. Ct. at 1701.10 But Garner in no way
renders “clearly established” a requirement to give a
warning, and await the suspect’s response, before
shooting. Nor does it mandate that the suspect’s
weapon be trained on the officer or others. Like the rest
of the calculus surrounding Fourth Amendment
reasonableness, the “feasibility” of any such potentially

9

Kisela v. Hughes, 138 S. Ct. 1148, 1153 (2018); White, 137 S. Ct.
at 552.
10

Turning on distinctly different facts, Garner alone does not
establish pertinent clearly established law here, and the majority
does not contend as much.

App. 43
deadly delay or factual nuance must be subjected to
case-specific balancing with deference paid to the
officer’s reasonable perceptions in the midst of a tense
situation. Graham, 490 U.S. at 396, 109 S. Ct. at 1872.
Indeed, in describing its holding at the outset, Garner
states only that “[deadly] force may not be used unless
it is necessary to prevent the escape [of an apparently
unarmed suspected felon] and the officer has probable
cause to believe that the suspect poses a significant
threat of death or serious physical injury to the officer
or others.” 471 U.S. at 3, 105 S. Ct. at 1697.11 No
mention of a warning appears in this introduction, and
“probable cause,” not a fact-specific test, is the measure
of the threat of harm.
Characterizing this case as a “no threat” or
“obvious” Fourth Amendment violation is wrong for
additional reasons. Whether, under the material
undisputed facts, Cole presented “no threat” to a
reasonable police officer is the relevant issue to assess
a Fourth Amendment violation. But the immunity
question, which the majority elides, is whether every
reasonable officer in this factual context would have
known he could not use deadly force. See Pearson, 555
U.S. at 232, 129 S. Ct. at 815-816. The majority’s

11

The majority cites Colston v. Barnhart, 130 F.3d 96, 100 (5th
Cir. 1997), for the necessity of giving a warning “where feasible”
before the use of deadly force. Oddly, Colston then immediately
holds that the officer there “lying on his back with Colston nearby,
had to immediately decide whether to shoot. In light of the totality
of the circumstances facing Barnhart, Barnhart’s failure to give a
warning was not objectively unreasonable.” Id. The feasibility of a
warning is part of the overall Fourth Amendment analysis, not an
independent sine qua non of official conduct.

App. 44
analysis conflates these inquiries. Second, the
importance of grounding the inquiry in a specific
factual context cannot be overstated. In this case, if
Officer Hunter had stood a hundred feet away from
Cole, or Cole had not been turning toward the officers,
or Cole had put the handgun in his pocket and wasn’t
touching it, the analysis of qualified immunity could be
quite different. Third, describing a situation as posing
“no threat” is a conclusion, not an explanation or, as
the majority seems to think, an exception to defining
clearly established law in a specific context. No doubt
there are rare “obvious” cases of Fourth Amendment
violations committed by officers who are plainly
incompetent or who knowingly violate the law. In the
wide gap between acceptable and excessive uses of
force, however, immunity serves its important purpose
of encouraging officers to enforce the law, in “tense,
uncertain and rapidly evolving” split-second situations,
rather than stand down and jeopardize community
safety.12
In their sole, erroneous dependence on Garner, the
majority, “can cite no case from [the Supreme] Court
denying qualified immunity because officers [entitled
to apprehend Cole] selected one dangerous alternative
over another.” Mullenix, 136 S. Ct. at 310. The
Mullenix Court showed that if anything, “clearly

12

Compare Wesby, 138 S. Ct. at 590 (“Of course, there can be the
rare obvious case, where the unlawfulness of the officer’s conduct
is sufficiently clear even though existing precedent does not
address similar circumstances. But a body of relevant case law is
usually necessary to clearly establish the answer with respect to
probable cause.”) (internal citation and quotation marks omitted).

App. 45
established law” was contrary to the plaintiff’s position.
The Court cited two prior Supreme Court car chase
cases that resulted in immunity even though the
fugitives—unlike the suspect in Mullenix—had not
verbally threatened to kill any officers in their path. Id.
at 310 (citing Scott, 550 U.S. at 384, 127 S. Ct. at 1778;
Plumhoff, 572 U.S. at 777, 134 S. Ct at 2022). And in
Mullenix itself, as here, the trooper had not warned the
fugitive before shooting at his speeding car. These
cases “reveal[ed] the hazy legal backdrop against which
Mullenix acted,” Id. at 309. Accordingly, the Court
admonished, “[w]hatever can be said of the wisdom of
Mullenix’s choice, this Court’s precedents do not place
the conclusion that he acted unreasonably in these
circumstances beyond debate.” Id. at 311 (internal
quotation marks omitted).
Not only do the majority cite “no case” in which the
Supreme Court denied qualified immunity to an officer
who used deadly force against a mentally distraught
individual in circumstances like the present case, but
to the contrary, the Court required qualified immunity
in two somewhat similar cases. In Sheehan, officers
used deadly force to subdue a mentally ill woman
during an armed confrontation. The Court restated
that the Fourth Amendment is not violated even if
police officers, with the benefit of hindsight, may have
made some mistakes, because “[t]he Constitution is not
blind to ‘the fact that police officers are often forced to
make split-second judgments.’” Sheehan, 135 S. Ct. at
1775 (quoting Plumhoff, 572 U.S. at 775, 134 S. Ct. at
2020).

App. 46
Even closer to this case is White v. Pauly, where an
officer arriving at the scene of an armed confrontation
shot and killed a suspect without knowing whether his
earlier-arrived colleagues had identified themselves as
police. 137 S. Ct. at 550-51. In White, the Court
chastised the lower court for “misunderst[anding]” the
“clearly established” analysis by relying on the
generalized pronouncements in Graham and Garner.
Id. at 552. Whether Officer White should have secondguessed the preceding conduct of fellow officers hardly
presented an “obvious case” pursuant to Garner. The
Court speculated that perhaps, given the three-minute
delay between when he arrived and when shots rang
out, Officer White “should have realized that [a
warning about police presence] was necessary before
using deadly force.” Id. There is a world of difference
between three minutes and three seconds, which
Officer Hunter had here, and between Officer White’s
securing himself behind a stone wall fifty feet from the
suspect and Officer Hunter’s standing fully exposed
only ten to twenty feet away from Cole. The majority
cannot reconcile the Supreme Court’s insistence upon
qualified immunity in White with their denial of the
defense to Officers Hunter and Cassidy.
Kisela v. Hughes, cited in support of the majority, in
no way articulates clearly established law concerning
the necessity of a warning. First, the Court in Kisela
overturned the Ninth Circuit’s denial of qualified
immunity without addressing the preliminary Fourth
Amendment violation. 138 S. Ct. at 1152. A decision
holding only that there was no “clearly established law”
cannot itself have defined “clearly established law.”
The Court also criticized the Ninth Circuit for failing to

App. 47
implement correctly the rule that an officer has not
“violated a clearly established right unless the right’s
contours were sufficiently definite that any reasonable
official in the defendant’s shoes would have understood
that he was violating it.” Id. at 1153 (internal quotation
marks omitted). The Court catalogued all the relevant
circumstances of the confrontation that provoked the
shooting: a knife-armed, threatening suspect, whose
bizarre behavior had been called in to 911, disobeyed
officers’ commands to disarm for up to one minute
before they felt compelled to shoot. Id. The Court
concluded, “[t]his is far from an obvious case in which
any competent officer would have known that shooting
Hughes to protect [the third party] would violate the
Fourth Amendment.” Id. Also “far from obvious” is the
case before us, in which the officers had five seconds,
not a whole minute, in which to decide whether to
shoot at Cole.
Finally, the Supreme Court’s decision in Tolan v.
Cotton adds nothing to the substance of the qualified
immunity discussion. In Tolan, the Court enumerated
four critical, disputed evidentiary contentions relating
to the officer’s perception of danger to himself and thus
to qualified immunity. 572 U.S. 650, 657-59, 134 S. Ct.
1861, 1866-67 (2014). Because this court had failed to
credit the plaintiff’s disputed version of these facts, the
Court vacated summary judgment for the officer and
remanded without deciding any merits issue. Id. at
657, 134 S. Ct. at 1866. In contrast, this dissent credits
only undisputed material facts and plaintiffs’ version of
disputable facts.

App. 48
Like this court’s panel in Mullenix, the majority
here offer no controlling Supreme Court precedent,
including Garner, to support that “clearly established
law” mandated that the officers hold their fire until
they had both warned Cole and given him a chance to
drop his gun or until he pointed the loaded weapon
directly at them.
For good measure, the Mullenix Court also
considered the potential similarity of lower court
decisions that dealt with qualified immunity. 136 S. Ct.
at 311. Fifth Circuit case law, the Court noted, did not
“clearly dictate the conclusion that Mullenix was
unjustified in perceiving grave danger and responding
accordingly.” Id. at 311 (citing Lytle v. Bexar County,
560 F.3d 404, 412 (5th Cir. 2009)). But the Court
quoted with approval an Eleventh Circuit case that
granted immunity to a sheriff’s deputy who fatally shot
a mentally unstable individual “who was attempting to
flee in the deputy’s car, even though at the time of the
shooting the individual had not yet operated the
cruiser dangerously. The court explained that ‘the law
does not require officers in a tense and dangerous
situation to wait until the moment a suspect uses a
deadly weapon to act to stop the suspect…’” Id. at 311
(quoting Long v. Slaton, 508 F.3d 576, 581-82 (11th Cir.
2007)). Here, too, the thrust of Mullenix contradicts the
majority’s logic and holding.
Moreover, to the extent it is relevant13, Fifth Circuit
law does not support denying qualified immunity to
Officers Hunter and Cassidy. The district court and,

13

See fn. 4, supra.

App. 49
inferentially, the majority demand that qualified
immunity be granted only if the suspect either disobeys
immediate commands to disarm or points his weapon
at the officers. The district court described such
threatening actions as a Manis act.14 It is true that in
previous deadly force cases, this court approved
qualified immunity for officers who reasonably believed
that a non-compliant suspect was reaching toward
where he could retrieve a weapon. See Manis, 585 F.3d
at 842; see also Reese v. Anderson, 926 F.2d 494, 500-01
(5th Cir. 1991); Young v. City of Killeen, Tx., 775 F.2d
1349, 1352 (5th Cir. 1985). The hitch in these
particular cases is that there wasn’t actually a weapon,
yet the officer’s objectively reasonable perception was
determinative as a matter of law. In another such
officer shooting case, this court upheld qualified
immunity where the suspect, who was being
interrogated for drunk driving at the side of a freeway,
turned to walk away from the officer, then appeared to
turn around toward him while reaching under his
shirttail for what the officer thought could be a
concealed weapon. Salazar-Limon v. City of Houston,
826 F.3d 272, 278 (5th Cir. 2016). This court added,
“[f]urthermore, …in the context of this case, it is
immaterial whether Salazar turned left, right, or at all
before being shot. Specifically, we have never required
officers to wait until a defendant turns toward them,
with weapon in hand, before applying deadly force to
ensure their safety.” 826 F.3d at 279 n. 6.
While a “Manis act” can sustain qualified immunity
even where no weapon is visible, it is not logical for an
14

Manis v. Lawson, 585 F.3d 839 (5th Cir. 2009).

App. 50
additional “act” to be mandated where the officers
confront a suspect armed, ready to shoot his pistol, and
turning toward them. An officer may be forced into
shooting an unarmed suspect by a Manis act, and thus
obtain qualified immunity. But it is perverse and
inconsistent with Fifth Circuit law to hold that the
officer has no qualified immunity because she is
constitutionally forbidden to shoot an armed suspect in
close quarters without either looking down the barrel
of the weapon or awaiting his response to her
command.
In fact, that is exactly what this court has not held.
In Ramirez v. Knoulton, 542 F.3d 124, 127 (5th Cir.
2008), police shot a suspect they believed to be suicidal
as he stood in profile to them, with a handgun in his
right hand, and brought his hands together in front of
his waist.” He “never raised his weapon nor aimed it at
the officers.” Id. at 129. The court held that based on
the officers’ reasonable perception, no Fourth
Amendment violation occurred, because the
Constitution “does not require police officers to wait
until a suspect shoots to confirm that a serious threat
of harm exists.” Id. at 130. See also Colston, 130 F.3d at
100; Ontiveros, 564 F.3d at 385 (holding no
constitutional violation where officer thought suspect
was reaching into his boot for a weapon during
confrontation in a mobile home). As the Supreme Court
put it in Mullenix, “the mere fact that courts have
approved deadly force in more extreme circumstances
says little, if anything, about whether such force was
reasonable in the circumstances here.” 136 S. Ct. at
312.

App. 51
The majority describe only one Fifth Circuit police
shooting case, out of dozens this court has decided, as
an “obvious case.” Baker v. Putnal, 75 F.3d 190 (5th
Cir. 1996). Whether that characterization applies to the
claimed Fourth Amendment violation in Baker, to
qualified immunity analysis, or simply to this court’s
decision to remand for trial is unclear in the majority
opinion. Baker, however, says nothing about the merits
of the case or about clearly established law, holding
instead that “[t]here are simply too many factual issues
to permit the Bakers’ § 1983 claims to be disposed of on
summary judgment.” Baker, 75 F.3d at 198. Hence, like
Kisela, Baker cannot support any rule of clearly
established law, much less explain what law is
“obvious.” Significantly, in Baker, whether the suspect
was holding a gun visible to the officer was an
important hotly contested issue, with eyewitnesses
contradicting the officer’s account of the incident.
Baker, 75 F.3d at 198. Cole’s case, in contrast, does not
involve a “chaos on the beach” incident. The undisputed
facts are starkly different here. It is undisputed, at a
minimum, that Cole was holding a loaded weapon, his
finger in the trigger, as he emerged from the woods; he
was turning toward the officers; and they had five
seconds to react. Baker does not show that the officers’
conduct in Cole violated clearly established law.
To sum up, the majority opinion here repeats every
error identified by the Supreme Court when it granted
summary reversal in Mullenix and sent the instant
case back for reconsideration. The majority’s “clearly
established” rule has changed, but not its errors.
Tennessee v. Garner does not formulate”clearly
established law” with the degree of specificity required

App. 52
by the Supreme Court’s decisions on qualified
immunity. The majority’s “no threat” and “obvious
case” statements pose the issues here at an excessive
level of generality. The majority has no Supreme Court
case law demonstrating that Officers Hunter and
Cassidy were either plainly incompetent or had to
know that shooting at Cole was unconstitutional under
the circumstances before them and with the knowledge
they possessed—he was mentally distraught; he was
armed with his finger in the pistol’s trigger; he was
very close to Hunter; he had been walking in the
direction of schools for which extra police protection
had been ordered; and he had ignored other officers’
commands to stop and drop his weapon. And they had
three to five seconds to decide how dangerous he could
be to them. The majority cites not one case from this
court denying qualified immunity under similar
circumstances. Mullenix aptly summed it up for our
purposes: “qualified immunity protects actions in the
hazy border between excessive and acceptable force.”
136 S. Ct. at 312 (internal quotation marks omitted).
“[T]he constitutional rule applied by the Fifth Circuit
was not ‘beyond debate.’” Id.
It is not “clearly established” that police officers
confronting armed, mentally disturbed suspects in
close quarters must invariably stand down until they
have issued a warning and awaited the suspects’
reaction or are facing the barrel of a gun. “This was not
a belief in possible harm, but a belief in certain harm.
The fact that they would later discover this to be a
mistaken belief does not alter the fact that it was
objectively reasonable for them to believe in the
certainty of that risk at that time.” Carnaby v. City of

App. 53
Houston, 636 F.3d 183, 188 n.4 (5th Cir. 2011). That is
the law in the Fifth Circuit, and the majority has
pointed to no clearly established law otherwise.
Shooting at Cole may not have been the wisest choice
under these pressing circumstances, but the officers’
decision, even if assailable, was at most negligent.
Hunter and Cassidy were neither plainly incompetent
nor themselves lawbreakers. While we are confident a
jury will vindicate their actions, they deserved
qualified immunity as a matter of law. We dissent.

App. 54
JERRY E. SMITH, Circuit Judge, dissenting:
This is a “red flag” case if ever there was one. The
en banc majority commits grave error, as carefully
explained in the dissents by Judge Jones, Judge
Willett, Judges Ho and Oldham (jointly), and Judge
Duncan. Yet eleven judges join the majority.
Abandon hope, all ye who enter Texas, Louisiana, or
Mississippi as peace officers with only a few seconds to
react to dangerous confrontations with threatening and
well-armed potential killers. In light of today’s ruling
and the raw count of judges,1 there is little chance that,
any time soon, the Fifth Circuit will confer the
qualified-immunity protection that heretofore-settled
Supreme Court and Fifth Circuit caselaw requires.
Red flags abound. Judge Duncan cogently details
the “rich vein of facts” describing this plaintiff’s
undisputed actions in the hours leading up to the
shooting.2
• Red flag: a 9mm semi-automatic handgun
and ammunition.
• Red flag: a double-barrel shotgun with shells.
• Red flag: a .44 magnum revolver.
1

This en banc court consists of the sixteen active judges, plus two
senior judges who were on the original panel. Of those sixteen
active judges, nine join the majority opinion.
2

I especially refer the reader to Part I of Judge Duncan’s dissent,
which sets forth the context and narrative of red-flag facts that
easily justify qualified immunity. All three dissents persuasively
explain the law of qualified immunity that the majority overlooks.

App. 55
• Red flag: a .38 revolver.
• Red flag: a suspect who had broken into a
gun safe and stolen an unknown quantity of
weapons and ammunition.
• Red flag: a police visit the night before to the
suspect’s house because of a disturbance with
his parents.
• Red flag: a suspect with a dangerous knife at
his parents’ house.
• Red flag: a suspect who had a wild look in his
eye and was smoking K2.
• Red flag: a suspect, distraught over breaking
up with his girlfriend, moving toward the school
where she was a student.
• Red flag: a suspect near an elementary
school.
• Red flag: a suspect with personal issues
including drug abuse.
• Red flag: a suspect seen running through the
woods with at least three weapons.
• Red flag: a suspect irate and distraught.
• Red flag: a suspect who said he would shoot
anyone who came near him.
• Red flag: a suspect armed with at least one
handgun and possibly three.

App. 56
• Red flag: a suspect who had refused police
demands to drop his weapon.
• Red flag: a suspect who deposited a cache of
weapons and ammunition at a friend’s house
after arguing with his parents.
• Red flag: a suspect who yelled obscenities at
an officer.
• Red flag: a suspect who had threatened to
kill his girlfriend and himself.
• Red flag: a suspect whom the district court
described as troubled.
• Red flag: a suspect described in his complaint
as suffering from obsessive compulsive disorder,
treated with medications from numerous
medical professionals, and having poor judgment
and impaired impulse control.
*****
Normally we expect police officers to recognize such
red flags and to respond appropriately. Instead of
protecting these officers from obvious danger to
themselves and the public, however, the en banc
majority orders them to stand down. What is the
hapless officer to do in the face of today’s decision?
What indeed is the “clearly established law” that the
majority now announces? The judges in the majority do
not say.
The law of qualified immunity was poignantly
summarized in 2019 by a dissenting judge who is now

App. 57
in the majority. Today’s en banc ruling turns those
words to dust.3
I respectfully dissent.
3

Winzer v. Kaufman Cty., 916 F.3d 464, 482 (5th Cir. 2019)
(Clement, J., dissenting), petition for rehearing en banc pending:
The implications of the majority’s mistakes cannot be
minimized. The majority decides that qualified immunity
can be endangered by an affidavit filed at summary
judgment that creates a fact issue nowhere else supported
by record evidence.
Worse still, it seriously undermines officers’ ability to
trust their judgment during those split seconds when they
must decide whether to use lethal force. Qualified
immunity is designed to respect that judgment, requiring
us to second-guess only when it clearly violates the law.
The standard acknowledges that we judges—mercifully—
never face that split second. Indeed, we never have to
decide anything without deliberation—let alone whether
we must end one person’s life to preserve our own or the
lives of those around us.
The qualified immunity standard stops this privilege
from blinding our judgment, preventing us from
pretending we can place ourselves in the officers’ position
based on a cold appellate record. It prevents us from
hubristically declaring what an officer should have
done—as if we can expect calm calculation in the midst of
chaos.
The majority opinion, written from the comfort of
courthouse chambers, ignores that deference. Instead, it
warns officers that they cannot trust what they see; they
cannot trust what their fellow officers observe; they cannot
trust themselves when posed with a credible threat. It
instructs them, in that pivotal split second, to wait. But
when a split second is all you have, waiting itself is a
decision—one that may bring disastrous consequences.

App. 58
DON R. WILLETT, Circuit Judge, dissenting:
I repeat what I said last month: The entrenched,
judge-invented qualified immunity regime ought not be
immune from thoughtful reappraisal.1
Qualified immunity strikes an uneasy, cost–benefit
balance between two competing deterrence concerns:
“the need to hold public officials accountable when they
exercise power irresponsibly and the need to shield
officials from harassment, distraction, and liability
when they perform their duties reasonably.”2 By
insulating incaution, the doctrine formalizes a
rights–remedies gap through which untold
constitutional violations slip unchecked. The real-world
functioning of modern immunity practice—essentially
“heads government wins, tails plaintiff loses”—leaves
many victims violated but not vindicated. More to the
point, the “clearly established law” prong, which is
outcome-determinative in most cases, makes qualified
immunity sometimes seem like unqualified impunity:
“letting public officials duck consequences for bad
behavior—no matter how palpably unreasonable—as
long as they were the first to behave badly.”3
That said, as a middle-management circuit judge, I
take direction from the Supreme Court. And the

1

Zadeh v. Robinson, 928 F.3d 457, 474 (5th Cir. 2019) (Willett, J.,
concurring in part, dissenting in part).
2

Pearson v. Callahan, 555 U.S. 223, 231 (2009) (flagging these
“two important interests”).
3

Zadeh, 928 F.3d at 479.

App. 59
Court’s direction on qualified immunity is increasingly
unsubtle. We must respect the Court’s exacting
instructions—even as it is proper, in my judgment, to
respectfully voice unease with them.4
I
Qualified immunity protects “all but the plainly
incompetent or those who knowingly violate the law.”5
While this bar is not insurmountable, it is sky-high.
And it is raised higher when courts leapfrog prong one
(deciding whether the challenged behavior violates the
Constitution) to reach simpler prong two: no factually
analogous precedent. Merely proving unconstitutional
misconduct isn’t enough. A plaintiff must cite
functionally identical authority that puts the
unlawfulness “beyond debate” to “every” reasonable
officer.6 Last month, for example, the Eleventh Circuit,
noting no “materially similar case” (thus no “clearly
established law”), granted immunity to a police officer
who fired at a family’s dog but instead shot a 10-yearold child lying face-down 18 inches from the officer.7
Not only that, the court “expressly [took] no position”
4

See, e.g., State Oil Co. v. Khan, 522 U.S. 3 (1997) (overruling prior
precedent whose unsoundness had been “aptly described” by the
court of appeals).
5

District of Columbia v. Wesby, 138 S. Ct. 577, 589 (2018) (quoting
Malley v. Briggs, 475 U.S. 335, 341 (1986)).
6

Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011); see also, e.g., Kisela
v. Hughes, 138 S. Ct. 1148, 1153 (2018) (per curiam); Mullenix v.
Luna, 136 S. Ct. 305, 308 (2015) (per curiam).
7

Corbitt v. Vickers, 929 F.3d 1304, 1307–08 (11th Cir. 2019).

App. 60
as to “whether a constitutional violation occurred in the
first place.”8 Translation: If the same officer tomorrow
shoots the same child while aiming at the same dog,
he’d receive the same immunity. Ad infinitum.
The Supreme Court demands precedential
specificity. But it’s all a bit recursive. There’s no earlier
similar case declaring a constitutional violation
because no earlier plaintiff could find an earlier similar
case declaring a constitutional violation. “Section 1983
meets Catch-22. Plaintiffs must produce precedent
even as fewer courts are producing precedent.
Important constitutional questions go unanswered
precisely because no one’s answered them before.
Courts then rely on that judicial silence to conclude
there’s no equivalent case on the books. No precedent
= no clearly established law = no liability. An
Escherian Stairwell.”9
II
In recent years, individual Justices have raised
concerns with the Court’s immunity caselaw.10 Even so,

8

Id. at 1323.

9

Zadeh, 928 F.3d at 479–80 (Willett, J., concurring in part,
dissenting in part).
10

Four sitting Justices “have authored or joined opinions
expressing sympathy” with assorted critiques of qualified
immunity. Joanna C. Schwartz, The Case Against Qualified
Immunity, 93 NOTRE DAME L. REV. 1797, 1800 (2018) (including
Justices Thomas, Ginsburg, Breyer, and Sotomayor, plus recently
retired Justice Kennedy); see, e.g., Ziglar v. Abbasi, 137 S. Ct.
1843, 1872 (2017) (Thomas, J., concurring in part and concurring

App. 61
the doctrine enjoys resounding, even hardening favor
at the Court. Just three months ago, in a case involving
the warrantless strip search of a four-year-old
preschooler, a strange-bedfellows array of scholars and
advocacy groups—perhaps the most ideologically
diverse amici ever assembled—implored the Court to
push reset.11 To no avail. This much is certain:
Qualified immunity, whatever its success at achieving
its intended policy goals, thwarts the righting of many
constitutional wrongs.
Perhaps the growing left–right consensus urging
reform will one day win out. There are several “mend
it, don’t end it” options. The Court could revisit
Pearson12 and nudge courts to address the threshold
constitutional merits rather than leave the law
undeveloped.13 Even if a particular plaintiff cannot
benefit (due to the “clearly established law” prong), this
would provide moving-forward guidance as to what the

in the judgment) (“In an appropriate case, we should reconsider
our qualified immunity jurisprudence.”); see also Kisela v. Hughes,
138 S. Ct. 1148, 1162 (2018) (per curiam).
11

Doe v. Woodard, 912 F.3d 1278 (10th Cir. 2019), cert. denied,
No. 18-1173, 2019 WL 1116409, at *1 (May 20, 2019). As for
congressional reform, Congress’s refusal to revisit § 1983 suggests
Article I acquiescence.
12

13

555 U.S. at 236.

As observers have cautioned, unfettered Pearson discretion
contributes to “constitutional stagnation” by impeding the
development of precedent. Aaron L. Nielson & Christopher J.
Walker, The New Qualified Immunity, 89 S. CAL. L. REV. 1, 23–24
(2015).

App. 62
law prescribes and proscribes. Short of that, the Court
could require lower courts to explain why they are
side-stepping the constitutional merits question.14 Or
the Court could confront the widespread inter-circuit
confusion on what constitutes “clearly established
law.”15 One concrete proposal: clarifying the degree of
factual similarity required in cases involving splitsecond decisions versus cases involving less-exigent
situations. The Court could also, short of undoing
Harlow and reinstating the bad-faith prong, permit
plaintiffs to overcome immunity by presenting objective
evidence of an official’s bad faith.16 Not subjective
evidence of bad faith, which Harlow, worried about
“peculiarly disruptive” and “broad-ranging discovery,”
forbids.17 And not unadorned allegations of bad faith.
But objective evidence that the official actually realized
that he was violating the Constitution.
Prudent refinements abound. But until then, as
Judge Jones explains in today’s principal dissent, the

14

Id. at 7.

15

See, e.g., RICHARD FALLON, JR., ET AL., HART AND WECHSLER’S
THE FEDERAL COURTS AND THE FEDERAL SYSTEM 1047–50 (7th ed.
2015) (noting the difficulties of applying the clearly-establishedlaw test); Karen M. Blum, Section 1983 Litigation: The Maze, the
Mud, and the Madness, 23 WM. & MARY BILL RTS. J. 913, 925 n.68
(2015) (“[W]hether a right is found to be ‘clearly established’ is very
much a function of which circuit (and I would add, which judge) is
asking the question, and how that question is framed.”).
16

Harlow v. Fitzgerald prevents plaintiffs from relying on
subjective evidence of bad faith. 457 U.S. 800, 815–16 (1982).
17

Id. at 817.

App. 63
Supreme Court’s unflinching, increasingly emphatic
application of “clearly established law” compels
dismissal.
III
I remain convinced that contemporary immunity
jurisprudence merits “a refined procedural approach
that more smartly—and fairly—serves its intended
objectives.”18 Yet I also remain convinced that a
majority of the Supreme Court disagrees. My
misgivings, I believe, are well advised. But we would be
ill advised to treat the reform of immunity doctrine as
something for this court rather than that Court.19
For these reasons, I respectfully dissent.

18

Zadeh, 928 F.3d at 481 (Willett, J., concurring in part, dissenting
in part).
19

As for the sidelong critique of me in the dissenting opinion of
Judges Ho and Oldham, it is, respectfully, a pyromaniac in a field
of straw men. I have not raised originalist concerns with qualified
immunity. My concerns, repeated today, are doctrinal, procedural,
and pragmatic in nature. Nor has my unease with modern
immunity practice led me to wage “war with the Supreme Court’s
qualified-immunity jurisprudence.” I am a fellow dissenter today,
notwithstanding my unease, precisely because I believe the Court’s
precedent compels it. In short, I have not urged that qualified
immunity be repealed. I have urged that it be rethought. Justice
Thomas—no “halfway originalist”—has done the same. Ziglar, 137
S. Ct. at 1872 (Thomas, J., concurring in part and concurring in
the judgment) (“In an appropriate case, we should reconsider our
qualified immunity jurisprudence.”).

App. 64
JAMES C. HO and ANDREW S. OLDHAM, Circuit
Judges, joined by JERRY E. SMITH, Circuit Judge,
dissenting:
Apparently SUMREVs mean nothing.
In Luna v. Mullenix, 773 F.3d 712 (5th Cir. 2014),
we sent a state trooper to a jury “in defiance” of “the
concept and precedents of qualified immunity.” 777
F.3d 221, 222 (5th Cir. 2014) (Jolly, J., dissenting from
denial of rehearing en banc). The Supreme Court
summarily reversed us. Mullenix v. Luna, 136 S. Ct.
305 (2015) (per curiam). Then they GVR’d us in this
case and ordered us to reconsider our obvious error in
light of Mullenix.
The en banc majority instead doubles down. That is
wrong for all the reasons Judge Jones gives in her
powerful dissent, which we join in full. We write to
emphasize the en banc majority’s unmistakable
message: Four years after Mullenix, nothing has
changed in our circuit.
I.
The Supreme Court has not hesitated to redress
similar intransigence from our sister circuits—often
through the “extraordinary remedy of a summary
reversal.” Kisela v. Hughes, 138 S. Ct. 1148, 1162
(2018) (Sotomayor, J., dissenting) (quotation omitted).
See, e.g., City of Escondido v. Emmons, 139 S. Ct. 500
(2019) (per curiam) (summarily reversing the Ninth
Circuit); Kisela, 138 S. Ct. 1148 (per curiam) (same);
District of Columbia v. Wesby, 138 S. Ct. 577 (2018)
(reversing the D.C. Circuit); White v. Pauly, 137 S. Ct.
548 (2017) (per curiam) (summarily reversing the

App. 65
Tenth Circuit); City and County of San Francisco v.
Sheehan, 135 S. Ct. 1765 (2015) (reversing the Ninth
Circuit); Carroll v. Carman, 574 U.S. 13 (2014) (per
curiam) (summarily reversing the Third Circuit); Wood
v. Moss, 572 U.S. 744 (2014) (reversing the Ninth
Circuit); Plumhoff v. Rickard, 572 U.S. 765 (2014)
(reversing the Sixth Circuit); Stanton v. Sims, 571 U.S.
3 (2013) (per curiam) (summarily reversing the Ninth
Circuit); Reichle v. Howards, 566 U.S. 658 (2012)
(reversing the Tenth Circuit); Ryburn v. Huff, 565 U.S.
469 (2012) (per curiam) (summarily reversing the
Ninth Circuit); Ashcroft v. al-Kidd, 563 U.S. 731 (2011)
(same); Brosseau v. Haugen, 543 U.S. 194 (2004) (per
curiam) (same).
In each of these cases, the Supreme Court reminded
lower courts that qualified immunity requires us not
only to identify a clearly established rule of law, but to
do so with great specificity. Everyone agrees, of course,
that Ryan Cole has a constitutional right not to be
seized unreasonably. But “that is not enough” to
subject a police officer to the burdens of our civil
litigation system. Saucier v. Katz, 533 U.S. 194, 202
(2001). The Supreme Court has “repeatedly told courts
. . . not to define clearly established law at [that] high
level of generality.” al-Kidd, 563 U.S. at 742. Rather,
“[t]he dispositive question is whether the violative
nature of particular conduct is clearly established.”
Mullenix, 136 S. Ct. at 308 (citation omitted).
Only by identifying a specific and clearly
established rule of law do we ensure that the officer
had “fair notice”—“in light of the specific context of the
case, not as a broad general proposition”—that his or

App. 66
her particular conduct was unlawful. Brosseau, 543
U.S. at 198 (citation omitted). See also, e.g., Sheehan,
135 S. Ct. at 1776 (“Qualified immunity is no immunity
at all if ‘clearly established’ law can simply be defined
as the right to be free from unreasonable searches and
seizures.”); Wilson v. Layne, 526 U.S. 603, 615 (1999)
(same); Anderson v. Creighton, 483 U.S. 635, 640 (1987)
(same).
So where is our clearly established law at issue
here? Unbelievably, the en banc majority says we don’t
need any. That’s so, they say, because “[t]his is an
obvious case.” Ante, at 16. That’s obviously wrong for
three reasons.
First, the Supreme Court to date has never
identified an “obvious” case in the excessive force
context. And the majority thinks this is the first? A
case where a mentally disturbed teenager—who has a
loaded gun in his hand with his finger on the trigger;
who has repeatedly refused to be disarmed; who has
threatened to kill anyone who tries to disarm him; who
poses such a deadly threat that police have been
deployed to protect innocent students and teachers at
his nearby high school—turns toward the officers just
ten to twenty feet away, giving them only seconds to
decide what to do in response. Really?
Second, the Supreme Court has granted qualified
immunity in much tougher cases than this one. In
Plumhoff, for example, officers fired 15 shots and killed
two unarmed men who fled a traffic stop. In Brosseau,
an officer shot an unarmed man who refused to open
his truck window. In Kisela, officers shot a woman who
was hacking a tree with a kitchen knife. In Sheehan,

App. 67
officers shot an old woman holding a kitchen knife in
an assisted-living facility. In all of these cases, the
Court held the officers were entitled to qualified
immunity.
Third, this is Mullenix all over again. There our
court relied on clearly established law as articulated in
Tennessee v. Garner, 471 U.S. 1 (1985). Garner involved
an unarmed man who fled from police after stealing
$10. An officer fatally shot Garner in the back of the
head as he attempted to climb a fence. Our court then
extended Garner to Mullenix’s case—which involved a
man who led police on a high-speed car chase after
violating his probation. A state trooper attempted to
end the chase by shooting the speeding car’s engine
block—but he missed the engine, hit the driver in the
face, and killed him. See Luna, 773 F.3d at 719–20
(discussing Garner). The Supreme Court summarily
reversed us because—as should be painfully obvious
from the Court’s serial reversals in this area—that’s
not how qualified immunity works. See Mullenix, 136
S. Ct. at 308–09 (holding our court erred in our
extrapolation of Garner to new facts). And they GVR’d
us in this very case to fix our mistakes in light of
Mullenix. The Supreme Court’s message could not be
clearer.1
1

The Supreme Court issues GVRs when, as here, legal error
infects the judgment below. See, e.g., Hicks v. United States, 137
S. Ct. 2000, 2000–01 (2017) (Gorsuch, J., concurring) (defending
GVR because “[a] plain legal error infects this judgment” and
because petitioner “enjoys a reasonable probability of success” in
getting judgment reversed on the merits); id. at 2002 (Roberts,
C.J., dissenting) (“[W]ithout a determination from this Court that
the judgment below was wrong or at least a concession from the

App. 68
Still, somehow, today’s majority does not get it.
Here, as in Mullenix, the majority attempts to rely on
Garner to establish the governing rule of law. From
Garner, the majority somehow divines a rule that an
officer cannot shoot a mentally disturbed teenager
holding a gun near his school. This is demonstrably
erroneous. In fact, one thing that unites the Supreme
Court’s recent reversals in cases involving qualified
immunity and excessive force is the attempt by lower
courts to extrapolate Garner to new facts. See Mullenix,
136 S. Ct. at 308–09; Scott v. Harris, 550 U.S. 372,
381–82 (2007) (same); Allen v. City of West Memphis,
509 F. App’x 388, 392 (6th Cir. 2012) (extrapolating
Garner), rev’d by Plumhoff, supra.
Moreover, there are additional parallels between
Mullenix and this case. Consider the supposed
requirement that an officer take some sort of non-lethal

Government to that effect, we should not, in my view, vacate the
Fifth Circuit’s judgment.”). As the cert petition explained, our
panel denied qualified immunity “based on the same rationale” on
“which this Court reversed in Mullenix.” Pet. at i, 2016 WL
4987324. We think it obvious the Supreme Court GVR’d because
it agreed. And tellingly, the majority does not offer an alternative
theory to explain the GVR. We ignore the Court’s message at our
peril. See, e.g., Smith v. Mitchell, 437 F.3d 884 (9th Cir. 2006)
(granting habeas relief to a state prisoner because the evidence
was insufficient to prove she shook her grandbaby to death);
Patrick v. Smith, 550 U.S. 915 (2007) (GVR’ing i/l/o Carey v.
Musladin, 549 U.S. 70 (2006)); Smith v. Patrick, 519 F.3d 900 (9th
Cir. 2008) (again granting habeas relief); Patrick v. Smith, 558
U.S. 1143 (2010) (GVR’ing i/l/o McDaniel v. Brown, 558 U.S. 120
(2010)); Smith v. Mitchell, 624 F.3d 1235 (9th Cir. 2010) (again
granting habeas relief); Cavazos v. Smith, 565 U.S. 1 (2011)
(SUMREV’ing).

App. 69
measure before using lethal force. In Mullenix, our
court used the power of 20-20 hindsight to say that a
reasonable officer should have used spike strips to stop
the chase. See 773 F.3d at 720–21. The Supreme Court
emphatically rebuked us. See 136 S. Ct. at 310. They
told us that an officer does not have to expose himself
or other officers to harm when the suspect has already
refused to be disarmed. That meant Trooper Mullenix
did not have to wait to see if the fleeing felon would
shoot or run over the officer manning the spike strips.
See id. at 310–11.
So too here. In this case, the majority complains
that the officers did not provide sufficient warning. But
there was no clearly established law requiring Officers
Cassidy and Hunter to announce themselves—while
caught in an open and defenseless position—and hope
not to get shot. That is particularly true here because
officers previously ordered Cole to put down his gun, he
refused, and he threatened to kill anyone who
attempted to disarm him.
And in Mullenix, as here, we accused the police
officers of being cowboys. Earlier on the day of the
shooting, Trooper Mullenix received a negative
performance review for “not being proactive enough as
a Trooper”; so in the aftermath of the shooting,
Mullenix said to his supervisor, “How’s that for
proactive?” 773 F.3d at 717; see also 136 S. Ct. at 316
(Sotomayor, J., dissenting). The panel opinions and en
banc majority opinion in this case likewise seethe with
innuendo that Officers Hunter and Cassidy were
wannabe cowboys looking for a gunfight. We are in no
position to make such accusations. No member of this

App. 70
court has stared down a fleeing felon on the interstate
or confronted a mentally disturbed teenager who is
brandishing a loaded gun near his school. And the
Mullenix Court held that the qualified-immunity
standard gives us no basis for sneering at cops on the
beat from the safety of our chambers. See 136 S. Ct. at
310–11 (majority op.) (citing Brief for National
Association of Police Organizations et al. as Amici
Curiae). Yet here we are. Again.
II.
The majority cannot dodge responsibility for today’s
decision by pointing to the limits of appellate
jurisdiction. See ante, at 13–14 (majority op.); ante, at
1 (Elrod, J., concurring). We obviously lack
interlocutory appellate jurisdiction to review the
genuineness of an officer’s fact dispute. See, e.g.,
Johnson v. Jones, 515 U.S. 304, 313–14 (1995); Kinney
v. Weaver, 367 F.3d 337, 346–47 (5th Cir. 2004) (en
banc) (applying Johnson v. Jones).
But that does nothing to defeat jurisdiction where,
as here, the factual disputes are immaterial. That is
why the Supreme Court repeatedly has rejected such
no-jurisdiction pleas from those who wish to deny
qualified immunity. See, e.g., Plumhoff, 572 U.S. at
771–73; id. at 773 (noting existence of genuine fact
dispute did not defeat appellate jurisdiction in Scott v.
Harris).
All the fact disputes in the world do nothing to
insulate this legal question: Is this an “obvious case”
under Garner—notwithstanding a mountain of
SUMREVs, GVRs, and pointed admonitions from the

App. 71
Supreme Court? The majority says yes. Ante, at 16.
They obviously must have jurisdiction to say so. With
respect, it makes no sense to say we lack jurisdiction to
disagree with them.
III.
What explains our circuit’s war with the Supreme
Court’s qualified-immunity jurisprudence? Two themes
appear to be at play.
First, the majority suggests we should be less than
enthused about Supreme Court precedent in this area,
because it conflicts with plaintiffs’ jury rights. To quote
the panel: “Qualified immunity is a judicially created
doctrine calculated to protect an officer from trial
before a jury of his or her peers. At bottom lies a
perception that the jury brings a risk and cost that lawenforcement officers should not face, that judges are
preferred for the task—a judgment made by appellate
judges.” Cole v. Carson, 905 F.3d 334, 336 (5th Cir.
2018). Or in the words of today’s majority: “The
Supreme Court over several years has developed
protection from civil liability for persons going about
their tasks as government workers” (a rather curious
way to describe the men and women who swear an oath
to protect our lives and communities). Ante, at 2. But
“the worker’s defense” must yield, in cases like this, “in
obeisance to [the] constitutional mandate” of a jury
trial. Id.
We appreciate the majority’s candor. But inferior
court judges may not prefer juries to the Justices.
Second, some have criticized the doctrine of
qualified immunity as ahistorical and contrary to the

App. 72
Founders’ Constitution. Ante at 2 (suggesting denial of
qualified immunity is commanded by “the Founders”);
compare William Baude, Is Qualified Immunity
Unlawful?, 106 CALIF. L. REV. 45, 49–61 (2018), with
Aaron L. Nielson & Christopher J. Walker, A Qualified
Defense of Qualified Immunity, 93 NOTRE DAME L. REV.
1853, 1856–63 (2018); see also Zadeh v. Robinson, 902
F.3d 483, 498 (5th Cir. 2018) (Willett, J., concurring
dubitante), revised on petition for reh’g en banc, 928
F.3d 457, 473 (5th Cir. 2019) (Willett, J., concurring in
part and dissenting in part).
As originalists, we welcome the discussion. But
separate and apart from the fact that we are bound as
a lower court to follow Supreme Court precedent, a
principled commitment to originalism provides no basis
for subjecting these officers to trial.
The originalist debate over qualified immunity may
seem fashionable to some today. But it is in fact an old
debate. Over two decades ago, Justices Scalia and
Thomas noted originalist concerns with qualified
immunity. But they also explained how a principled
originalist would re-evaluate established doctrines. See
Crawford-El v. Britton, 523 U.S. 574, 611–12 (1998)
(Scalia, J., joined by Thomas, J., dissenting).
A principled originalist would not cherry pick which
rules to revisit based on popular whim. A principled
originalist would fairly review decisions that favor
plaintiffs as well as police officers. As Justice Scalia
explained in a dissent joined by Justice Thomas, a
principled originalist would evenhandedly examine
disputed precedents that expand, as well as limit,
§ 1983 liability:

App. 73
[O]ur treatment of qualified immunity under 42
U.S.C. § 1983 has not purported to be faithful to
the common-law immunities that existed when
§ 1983 was enacted . . . . [But] [t]he § 1983 that
the Court created in 1961 bears scant
resemblance to what Congress enacted almost a
century earlier. I refer, of course, to the holding
of Monroe v. Pape, 365 U.S. 167 (1961), which
converted an 1871 statute covering
constitutional violations committed “under color
of any statute, ordinance, regulation, custom, or
usage of any State,” Rev. Stat. § 1979, 42 U.S.C.
§ 1983 (emphasis added), into a statute covering
constitutional violations committed without the
authority of any statute, ordinance, regulation,
custom, or usage of any State, and indeed even
constitutional violations committed in stark
violation of state civil or criminal law.
Id. at 611.
Justices Scalia and Thomas ultimately concluded
that it is better to leave things alone than to
reconfigure established law in a one-sided manner. If
we’re not willing to re-evaluate all § 1983 precedents in
a balanced and principled way, then it “is perhaps just
as well” that “[w]e find ourselves engaged . . . in the
essentially legislative activity of crafting a sensible
scheme of qualified immunities for the statute we have
invented—rather than applying the common law
embodied in the statute that Congress wrote.” Id. at
611–12.
Translation: If we’re not going to do it right, then
perhaps we shouldn’t do it at all.

App. 74
Subjecting these officers to trial on originalist
grounds is precisely the unprincipled practice of
originalism that Justices Scalia and Thomas railed
against. And not just for the procedural reasons they
identified in Crawford-El. What about the original
understanding of the Fourth Amendment, which the
plaintiffs here invoke as their purported substantive
theory of liability in this case? Does the majority
seriously believe that it is an “unreasonable seizure,”
as those words were originally understood at the
Founding, for a police officer to stop an armed and
mentally unstable teenager from shooting innocent
officers, students, and teachers?
And make no mistake: Principled originalism is not
just a matter of intellectual precision and purity. There
are profound practical consequences here as well, given
the important and delicate balance that qualified
immunity is supposed to strike. As the Supreme Court
has explained, qualified immunity ensures that
liability reaches only “the plainly incompetent or those
who knowingly violate the law.” Mullenix, 136 S. Ct. at
308 (quotation omitted). And absent plain
incompetence or intentional violations, qualified
immunity must attach, because the “social costs” of any
other rule are too high:
[I]t cannot be disputed seriously that claims
frequently run against the innocent as well as
the guilty—at a cost not only to the defendant
officials, but to society as a whole. These social
costs include the expenses of litigation, the
diversion of official energy from pressing public
issues, and the deterrence of able citizens from

App. 75
acceptance of public office. Finally, there is the
danger that fear of being sued will dampen the
ardor of all but the most resolute, or the most
irresponsible public officials, in the unflinching
discharge of their duties.
Harlow v. Fitzgerald, 457 U.S. 800, 814 (1982)
(alterations and quotations omitted); see also, e.g.,
Sheehan, 135 S. Ct. at 1774 n.3 (noting “the importance
of qualified immunity to society as a whole”).
For those who have expressed concerns about a
“one-sided approach to qualified immunity,” Kisela, 138
S. Ct. at 1162 (Sotomayor, J., dissenting); see also
Zadeh, 902 F.3d at 499 & n.10 (Willett, J., concurring
dubitante) (quoting Kisela, 138 S. Ct. at 1162
(Sotomayor, J., dissenting)); 928 F.3d at 480 & n.61
(Willett, J., concurring in part and dissenting in part)
(same), look no further than the majority opinion. The
majority undoes the careful balance of interests
embodied in our doctrine of qualified immunity,
stripping the officers’ defenses without regard to the
attendant social costs.2
Now that is a one-sided approach to qualified
immunity as a practical matter. And as Justices Scalia
2

Those social costs are particularly stark today given widespread
news of low officer morale and shortages in officer recruitment.
See, e.g., Ashley Southall, When Officers Are Being Doused, Has
Police Restraint Gone Too Far?, N.Y. TIMES, July 25, 2019, at A22;
Martin Kaste & Lori Mack, Shortage of Officers Fuels Police
Recruiting Crisis, NPR (Dec. 11, 2018, 5:05 AM),
https://n.pr/2Qrbrnq; Jeremy Gorner, Morale, Policing Suffering in
Hostile Climate, Cops Say; ‘It’s Almost Like We’re the Bad Guys,’
Veteran City Officer Says, CHI. TRIB., Nov. 27, 2016, at 1.

App. 76
and Thomas have observed, it’s also a one-sided
approach to qualified immunity as an originalist
matter: It abandons the defense without also
reconsidering the source and scope of officers’ liability
in the first place. See Crawford-El, 523 U.S. at 611–12
(Scalia, J., joined by Thomas, J., dissenting). To quote
Justice Alito: “We will not engage in this halfway
originalism.” Janus v. Am. Fed’n of State, Cty., & Mun.
Emps., Council 31, 138 S. Ct. 2448, 2470 (2018). See
also id. (criticizing litigants for “apply[ing] the
Constitution’s supposed original meaning only when it
suits them”); Gundy v. United States, 139 S. Ct. 2116,
2131 (2019) (Alito, J., concurring in the judgment) (“[I]t
would be freakish to single out the provision at issue
here for special treatment.”).3
***
Our circuit, like too many others, has been
summarily reversed for ignoring the Supreme Court’s
repeated admonitions regarding qualified immunity.
There’s no excuse for ignoring the Supreme Court

3

In a footnote, Judge Willett notes that his criticism of the
Supreme Court’s qualified immunity precedents is not based on
originalist grounds. Ante, at 4 n.19. To our minds, that makes his
criticism harder, not easier, to defend. If his concerns are based on
practical and not originalist considerations, then he should address
them to the Legislature, rather than attack the Supreme Court as
“one-sided.” Zadeh, 902 F.3d at 499 & n.10 (Willett, J., concurring
dubitante) (quoting Kisela, 138 S. Ct. at 1162 (Sotomayor, J.,
dissenting)). He also invokes Justice Thomas’s opinion in Ziglar v.
Abbasi, 137 S. Ct. 1843, 1872 (2017). But that opinion cites Justice
Scalia’s opinion in Crawford-El, which (as we explained above)
warns qualified immunity skeptics not to engage in halfway
originalism.

App. 77
again today. And certainly none based on a principled
commitment to originalism.
Originalism for plaintiffs, but not for police officers,
is not principled judging. Originalism for me, but not
for thee, is not originalism at all. We respectfully
dissent.

App. 78
STUART KYLE DUNCAN, Circuit Judge, joined by
SMITH, OWEN, HO, and OLDHAM, Circuit Judges,
dissenting:
The majority opinion overlooks or omits undisputed
material facts showing that any reasonable officer
would have viewed Ryan Cole as a severe threat.
Before the shooting, the defendant officers: (1) were
tracking a distraught suspect wandering through the
woods armed with a loaded 9mm semi-automatic
handgun; (2) who had earlier that morning off-loaded
a cache of weapons and ammunition at a friend’s house;
(3) who had already refused to give up his pistol when
confronted by the police; and (4) who had threatened to
“shoot anyone who came near him.” Cole did not
dispute those facts and, indeed, convinced the district
court they were irrelevant. Joining Judge Jones’
dissent in full, I respectfully dissent on the additional
grounds provided by these pre-encounter facts.
No one doubts some of the events on October 25,
2010—when the officers violently encountered Cole in
the woods near Garland, Texas—are disputed. The
question is whether those disputes are material. See,
e.g., Bazan ex rel. Bazan v. Hidalgo Cty., 246 F.3d 481,
483 (5th Cir. 2001) (“threshold issue” on qualified
immunity appeal “is whether the facts the district
judge concluded are genuinely disputed are also
material”). Judge Jones’ dissent compellingly shows
they are not: Resolving all disputes in Cole’s favor, the
undisputed facts still show the officers violated no
clearly established law. Jones Dissent at 2–3, 11–22.
The majority thus errs by concluding that “competing

App. 79
factual narratives” bar it from deciding qualified
immunity. Maj. at 3.
I write separately to emphasize what led up to the
shooting, and also to explain why those undisputed
events provide further reasons to reverse. The majority
and Judge Jones focus on the shooting itself, as did the
district court. But the prelude to the shooting gives
unavoidable context for evaluating the officers’
actions.1 Surprisingly, the district court did not even
analyze those stage-setting facts, which it mistakenly
deemed irrelevant. See Cole v. Hunter, No. 3:13-CV02719-O, 2014 WL 266501, at *13 n.5 (N.D. Tex.
Jan. 24, 2014); Cole v. Hunter, 68 F. Supp. 3d 628,
642–43 (N.D. Tex. 2014). So, to assess their impact, we
must “undertake a cumbersome review of the record.”
Johnson v. Jones, 515 U.S. 304, 319 (1995). That extra
work is sometimes imperative, as here, “to ensure that
the defendant’s right to an immediate appeal on the
issue of materiality is not defeated solely on account of
the district court’s failure to articulate its reasons for
denying summary judgment.” Colston v. Barnhart, 146
F.3d 282, 285 (5th Cir. 1998), denying reh’g in 130 F.3d
96 (5th Cir. 1997).
This detailed record review (see Part I) compels two
conclusions (see Part II). First, the district court erred
by excluding the undisputed events before the shooting.
1

See, e.g., Kingsley v. Hendrickson, 135 S. Ct. 2466, 2474 (2015)
(courts “must judge the reasonableness of the force used from the
perspective and with the knowledge of the defendant officer”);
Tennessee v. Garner, 471 U.S. 1, 9 (1985) (whether a “particular”
seizure was justified depends on “the totality of the
circumstances”).

App. 80
That error—based on a misreading of our
precedent—truncated the qualified immunity analysis.
That alone requires reversing the summary judgment
denial. Second, in light of those pre-encounter facts, the
majority’s insistence that this is an “obvious case”
collapses. Maj. at 16. Given what confronted the
officers, the majority cannot say what they did was
“obviously” unlawful. The only thing obvious is that no
case told the officers, clearly or otherwise, how to
respond when they met Cole that morning, emerging
from the woods with his finger on the trigger of a
loaded gun.
By denying qualified immunity and making the
officers run the gauntlet of trial, the majority sets a
precedent that “seriously undermines officers’ ability to
trust their judgment during those split seconds when
they must decide whether to use lethal force.” Winzer
v. Kaufman Cty., 916 F.3d 464, 482 (5th Cir. 2019)
(Clement, J., dissenting).
I.
The majority begins “around 10:30 a.m.,” less than
an hour before the shooting. Maj. at 4. But events
began to unfold much earlier.2 Around 2 a.m. that
morning, Cole knocked on the door of his friend, Eric
Reed Jr., to show him “a 44 magnum revolver.”
Awakened by the knocking, Eric Jr.’s father (Eric Sr.)

2

All of these facts come from reports and transcriptions of radio
transmissions made within a day or two of the incident. None come
from affidavits submitted by the officers years later. And, as
explained below, none of these pre-encounter facts was disputed by
Cole or analyzed by the district court.

App. 81
left his room, saw Cole with the gun, and told him to
leave. Eric Jr. convinced Cole to leave the revolver
because “he [did not] need to be carrying a weapon
around.”
Around 8 a.m., Eric Jr. gave his father Cole’s gun.
Eric Sr., a retired Sachse police officer, then notified
Officer Vernon Doggett, who came to the Reeds’. Eric
Jr. told his father and Doggett that “[Cole] told him
there were more guns on the side of the house.” There,
they found “a double barrel shot gun with some shot
gun shells and what appeared to be a plastic bag with
9mm bullets,” which Doggett secured. Eric Jr. also
explained Cole “had broken up with his girlfriend and
was going to kill himself and his girlfriend.”
Doggett was a resource officer for Sachse High
School, where Cole and his girlfriend attended. He
contacted Sergeant Garry Jordan, told him about the
guns, and asked to meet at the school. Doggett reported
that Cole “may be at school with a 9mm handgun.”
Another officer checked whether Cole was in class, and
Jordan searched the parking areas for Cole.
Not finding him, Jordan went to Coles’ and spoke to
his parents. He learned that, the previous evening,
officers had responded to a disturbance there. Officers
had found Cole’s father “holding Ryan down” because
“he did not want [Cole] to leave the residence with the
pocket knife that he had.” He said “his son had a wild
look in his eye and . . . had been smoking K2.” While
the officers found there had been no assault, all agreed
it was “a good idea for Cole to stay the night with a
friend.” The Coles had not seen Ryan since then but
reported he had “apparently returned home during the

App. 82
night and had opened the gun safe, removed an
unknown amount [sic] of weapons, and reset the
combination.”
Meanwhile, Eric Jr. noticed Cole was back. He
asked Cole if he was armed and Cole showed him a “38
revolver” and a “9mm semiauto.” He convinced Cole to
give him the revolver, but Cole told him he was not
“getting the 9mm.” Cole also said that the 9mm was
loaded and that he did not “wanna use it on [Eric Jr.]”
Cole stated that “he would shoot anyone who came
near him.” Cole left, and Eric Jr. called his father, who
called the police.
Around 10:49 a.m., Officer Stephen Norris radioed
“all available Sachse officers” to respond to the area of
the Reed residence. He reported Cole was “observed
running south of the location with 3 weapons, one a
loaded 9mm.” He also reported Cole was “irate and
distraught and stated he would shoot anyone who came
near him.” Around the same time, Sachse Officer
Michael Hunter was dispatched to assist Jordan at the
Coles’, but on arrival he was told by Sachse Officer Carl
Carson he was not needed. As Hunter was leaving, he
heard Norris’ call advising Cole was “in the area . . .
with a gun.” Hunter stated he “did not know the
specifics of the call at this point,” but proceeded to the
Reeds’ residence. In response to Norris’ call, Jordan
also left the Coles’.
Sachse Officer Martin Cassidy also received Norris’
dispatch and went to the area Norris indicated. He was
given Cole’s description and advised that Cole was
“armed with at least one handgun and possibly three.”
Cassidy spoke with Norris on the phone about “the

App. 83
proximity of Armstrong Elementary School to the
location where [Cole] was last seen.” Cassidy therefore
went to check on the school and a nearby shopping
center for any signs of Cole.
Meanwhile, Hunter arrived at the Reeds’, where he
met Jordan and Carson. Hunter overheard Eric Jr. say
he had gotten “one gun” from Cole but that Cole had
left “armed with a 9mm handgun.” “Hunter put [Cole’s]
description out to other officers,” and then he and
Carson went to search for Cole. After speaking with the
officers, Eric Jr. checked for more guns and found “6
firearms around [his] house.”
Jordan then observed Officers Elliott and Sneed
pass by in a patrol unit. Those officers found Cole
nearby. Elliott reported that “Sneed . . . advised [Cole]
to show his hands.” Instead, Cole “reached into his
waist band and pulled a pistol and placed it to his head
after about three steps and refused to obey Lt.
Sneed[‘s] commands.” When Jordan arrived, Sneed
“drew his duty weapon and yelled at [Cole] to drop the
weapon,” but Cole refused. As Cole continued
eastbound towards Highway 78, Sneed “warned [Cole]
that [he] would shoot him in the back if he tried to get
to the highway or walk toward any innocent
bystanders.” Cole “would occasionally turn his head
and yell obscenities at [Sneed].” Two other officers then
parked “directly in front of [Cole’s] path.” To avoid
them, Cole turned “northbound and began walking the
railroad tracks.” Jordan was constantly updating
dispatch about Cole’s movements. “Suddenly, [Sneed]
observed [Cole] cut eastbound and run up a hill and
into the brush towards Highway 78.” Dispatch reported

App. 84
that Cole was “off tracks coming through tree lines
towards [Highway] 78.”
Hunter, Carson, and Cassidy were monitoring
Cole’s movements from the dispatches. They arrived
separately at the part of Highway 78 where Cole was
thought to be. Hunter noted “[Cole] appeared to be
walking towards the railroad track,” and he advised
Carson “[they] needed to go out to the highway and
intercept [him].” Cassidy advised Carson to get out his
taser and follow Cassidy. Hunter “parked further south
on Highway 78 as [he] figured [Cole] would be on the
railroad track paralleling Highway 78 at about [his]
location.” He guessed correctly. As Hunter “began to
look for cover since [he] was out in the open,” Cole
“walked out from the brush approximately 10 to 20 feet
from [Hunter].”
What followed was the shooting.
II.
Cole did not dispute these stage-setting events in
opposing summary judgment. To the contrary, he
argued any “prior events” before the shooting were
“irrelevant.” The district court agreed, excluding from
its qualified immunity analysis the “events” from
“earlier that morning,” Cole, 2014 WL 266501, at *13
n.5, and focusing solely on what happened
“immediately before and during the shooting.” Cole, 68
F. Supp. 3d at 644. That mistake skewed the district
court’s analysis and provides yet another reason why
we should reverse.
First, the district court erred by excluding
everything that happened before the officers’ five-

App. 85
second encounter with Cole. That approach artificially
truncates the qualified immunity analysis. In assessing
qualified immunity, we “[c]onsider[ ] the specific
situation confronting [officers],” City & Cty. of San
Francisco v. Sheehan, 135 S. Ct. 1765, 1778 (2015),
which “must be judged from the perspective of a
reasonable officer on the scene[.]” Graham v. Connor,
490 U.S. 386, 396 (1989). A “reasonable officer” does
not shape his decisions based only on the seconds when
he confronts an armed suspect; instead, he acts based
on all relevant circumstances, including the events
leading up to the ultimate encounter. See, e.g., Escobar
v. Montee, 895 F.3d 387 (5th Cir. 2018) (courts evaluate
excessive force claims “from the perspective of a
reasonable officer on the scene, paying ‘careful
attention to the facts and circumstances of each
particular case’”) (quoting Graham, 490 U.S. at 396).
That is precisely how the Supreme Court has
instructed lower courts to assess whether force is
excessive: The seminal case, Tennessee v. Garner, asks
whether a seizure was justified, based not only on the
immediate seizure, but on “the totality of the
circumstances” facing the officers. 471 U.S. 1, 9 (1985).
And qualified immunity cases, both from the Supreme
Court and our court, routinely consider the background
facts that shaped an officer’s confrontation with a
suspect in order to evaluate the officer’s ultimate use of
force.3
3

See, e.g., Mullenix v. Luna, 136 S. Ct. 305, 306 (2015) (assessing
officer’s shooting of suspect during car chase beginning with events
preceding the “18-minute chase”); Plumhoff v. Rickard, 572 U.S.
765, 768–70 (2014) (assessing officer’s shooting of suspects in
Memphis, Tennessee after lengthy car chase beginning with traffic

App. 86
The district court’s sole contrary authority was our
statement in Rockwell v. Brown, 664 F.3d 985, 991 (5th
Cir. 2011), that the excessive force inquiry “is confined
to whether the [officer or another person] was in
danger at the moment of the threat.” But the district
court overread Rockwell. We made that statement in
Rockwell to reject the notion that officers’ negligence
before a confrontation determines whether they
properly used deadly force during the confrontation.
See id. at 992–93 (rejecting argument that
“circumstances surrounding a forced entry” bear on
“the reasonableness of the officers’ use of deadly force”).
The cases Rockwell cited say that plainly. See, e.g.,
Fraire v. City of Arlington, 957 F.2d 1268, 1276 (5th
Cir. 1992) (“[R]egardless of what had transpired up
until the shooting itself, [the suspect’s] movements
gave the officer reason to believe, at that moment, that
there was a threat of physical harm.”).4 And the key
case Rockwell quoted for the “moment-of-the-threat”
point recognized that pre-confrontation events could
stop in “West Memphis, Arkansas”); Brosseau v. Haugen, 543 U.S.
194, 195 (2004) (evaluating officer’s shooting of fleeing suspect
beginning with events “[o]n the day before the fracas”); Colston,
130 F.3d at 100 (determining officer’s failure to warn was not
objectively unreasonable “[i]n light of the totality of the
circumstances facing [the officer]”) (citing Garner, 471 U.S. at 10).
4

Our cases continue to apply the Rockwell “moment-of-the-threat”
principle in this way. See, e.g., Shepherd v. City of Shreveport, 920
F.3d 278 (5th Cir. 2019) (explaining that, because the excessive
force inquiry is “confined to whether the officer was in danger at
the moment of the threat[,] . . . [t]herefore, any of the officers’
actions leading up to the shooting are not relevant”) (emphasis
added) (internal quotes and citation omitted); Harris v. Serpas, 745
F.3d 767, 772–73 (5th Cir. 2014) (same) (discussing Rockwell).

App. 87
“set the stage for what followed in the field.” Bazan,
246 F.3d at 493.
By misreading our cases, the district court blinded
itself to a rich vein of facts—facts Cole did not dispute
below—that round out the picture of the officers’
violent encounter with Cole. At a minimum, that error
alone requires reversing the denial of summary
judgment and remanding for reconsideration of the
officers’ actions in light of all relevant undisputed facts.
See, e.g., White v. Balderama, 153 F.3d 237, 242 (5th
Cir. 1998) (concluding “limited remand” was
appropriate given “lack of specificity in . . . district
court’s order denying summary judgment on the basis
of qualified immunity”).
Second, the undisputed pre-encounter events
underscore why, contrary to the majority’s view, this is
far from an “obvious case.” Maj. at 16. An “obvious
case,” the Supreme Court has explained, is one where
an officer’s actions are plainly unlawful under a
generalized legal test, even if those actions do not
contravene a “body of relevant case law.” Brosseau, 543
U.S. at 199 (citing Hope v. Pelzer, 536 U.S. 730, 738
(2002)); see also, e.g., White v. Pauly, 137 S. Ct. 548,
552 (2017) (an “obvious case” means that “in the light
of pre-existing law the unlawfulness [of the officer’s
actions] must be apparent”) (citing Anderson v.
Creighton, 483 U.S. 635, 640 (1987)) (cleaned up). As I
understand the majority opinion, it believes this is an
obvious case because a jury could find that (1) Cole
“posed no threat” to the officers; (2) the officers fired
“without warning”; and (3) the officers had “time and
opportunity” to warn Cole, but did not. Maj. at 15.

App. 88
According to the majority, this scenario would plainly
violate Garner’s generalized test that an officer may
not use deadly force to apprehend a suspect who “poses
no immediate threat to the officer,” unless he warns
the suspect “where feasible.” Id. (quoting Garner, 471
U.S. at 11–12).
Judge Jones’ dissent shows that, even resolving all
disputed facts in Cole’s favor, the officers did not
“obviously” violate Garner’s generalized test during the
immediate shooting—that is, when in the space of five
seconds at most, the officers met Cole at a distance of
10–20 feet as he backed out of the woods, still armed,
and began to turn. Jones Dissent at 11–12. But if we
include the undisputed facts leading up to the shooting,
the notion that this is an “obvious case” crumbles. To
believe that, we would have to blind ourselves to the
facts that (1) the officers were searching for an irate,
distraught suspect; (2) who was wandering through the
woods armed with a loaded semi-automatic handgun;
(3) who had refused police demands to turn over his
weapon; (4) who had just that morning deposited a
cache of weapons and ammunition at his friend’s house;
and (5) who had threatened to “shoot anyone who came
near him.” Those were the “totality of the
circumstances” facing the officers, Colston, 130 F.3d at
100, and they were not disputed by Cole or the district
court. Given those circumstances, the officers might
have taken any number of actions when they met Cole
in the woods that morning—they might have warned
him, or shot him, or shot in the air, or retreated, or
remained frozen in place to see what he would do. But
to say it is “obvious” what they should have done is to

App. 89
denude the concept of an “obvious case” of any
meaning.
Once stripped of the conceit that this is an “obvious
case,” the majority has nothing left to justify its
holding. The Supreme Court has bluntly told us that,
outside the “obvious case” scenario, “Garner . . . do[es]
not by [itself] create clearly established law[.]” White v.
Pauly, 137 S. Ct. at 552. And, of course, the majority
does not try to claim that the facts of Garner are
anything like this case. In Garner, a police officer shot
a fleeing, unarmed burglar in the back of the head. The
officer admitted he did not even suspect the burglar
was armed. See 471 U.S. at 3 (noting the officer “saw
no sign of a weapon” at the time he shot and,
afterwards, admitted “[he] was ‘reasonably sure’ and
‘figured’ that [the suspect] was unarmed”). Apples and
oranges does not capture the chasm between that case
and this one.
The majority does claim that our 1996 decision in
Baker v. Putnal, “clearly established” that the officers’
conduct here was unlawful. Maj. at 16 (citing 75 F.3d
190, 193 (5th Cir. 1996)). That is mistaken. In Baker,
Officer Putnal was patrolling a crowded beach area
when gunfire erupted. Id. Witnesses directed Putnal
“toward a red car which they said contained the
shooters.” Id. He approached that car, but then saw
two people sitting in another vehicle, a truck. Id. One
of the truck’s passengers, Wendell Baker, “turned in
Putnal’s direction . . . [and] Putnal shot and killed
[him].” Id. While a pistol was recovered from the truck,
the plaintiffs denied Baker “was holding a pistol” when

App. 90
shot. Id. at 196. In other words, a jury could have found
Baker was not holding a gun when Putnal killed him.
It is not hard to grasp the key difference between
Baker and this case. When shot, Baker was possibly not
even holding a gun. When shot, Cole was undisputedly
holding a gun. Imagine this conversation between a
police officer and the police department’s lawyer:
OFFICER:

I heard the Fifth Circuit just
decided this Baker case. What does
it tell me I should or shouldn’t do
in the field?

LAWYER:

Well, Baker says you lose qualified
immunity if you shoot someone
sitting in a car doing nothing more
threatening than just turning in
your direction. In other words,
someone you don’t even see holding
a weapon.

OFFICER:

Makes sense. But tell me this.
What if the person I approach is
holding a gun?

LAWYER:

Well, Baker doesn’t speak clearly
to that situation. I mean, the jury
in Baker could have found the guy
didn’t even have a gun in his hand
when the officer shot him.

In other words, contrary to the majority’s view, Baker
could not have “established clearly that Cassidy’s and
Hunter’s conduct . . . was unlawful” when they shot
Cole as he emerged from the woods with his finger on

App. 91
the trigger of a loaded gun. Maj. at 16. To guide officers
in the field, a controlling precedent must be
“sufficiently clear that every reasonable [officer] would
have understood that what he is doing violates” the
Constitution. Mullenix, 136 S. Ct. at 308 (cleaned up).
Baker does not come close.
The officers deserve qualified immunity on the
excessive force claims. I respectfully dissent.

